<html>
<title> - CHANGES TO THE HEIGHT ACT: SHAPING WASHINGTON, D.C., FOR THE FUTURE, PART II</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
             CHANGES TO THE HEIGHT ACT: SHAPING 
           WASHINGTON, D.C.,  FOR THE FUTURE, PART II
=======================================================================


                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT

                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2013

                               __________

                           Serial No. 113-80

                               __________

Printed for the use of the Committee on Oversight and Government Reform


         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform





                  U.S. GOVERNMENT PRINTING OFFICE
86-796                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 DARRELL E. ISSA, California, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
PATRICK T. McHENRY, North Carolina   ELEANOR HOLMES NORTON, District of 
JIM JORDAN, Ohio                         Columbia
JASON CHAFFETZ, Utah                 JOHN F. TIERNEY, Massachusetts
TIM WALBERG, Michigan                WM. LACY CLAY, Missouri
JAMES LANKFORD, Oklahoma             STEPHEN F. LYNCH, Massachusetts
JUSTIN AMASH, Michigan               JIM COOPER, Tennessee
PAUL A. GOSAR, Arizona               GERALD E. CONNOLLY, Virginia
PATRICK MEEHAN, Pennsylvania         JACKIE SPEIER, California
SCOTT DesJARLAIS, Tennessee          MATTHEW A. CARTWRIGHT, 
TREY GOWDY, South Carolina               Pennsylvania
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
DOC HASTINGS, Washington             ROBIN L. KELLY, Illinois
CYNTHIA M. LUMMIS, Wyoming           DANNY K. DAVIS, Illinois
ROB WOODALL, Georgia                 PETER WELCH, Vermont
THOMAS MASSIE, Kentucky              TONY CARDENAS, California
DOUG COLLINS, Georgia                STEVEN A. HORSFORD, Nevada
MARK MEADOWS, North Carolina         MICHELLE LUJAN GRISHAM, New Mexico
KERRY L. BENTIVOLIO, Michigan        Vacancy
RON DeSANTIS, Florida

                   Lawrence J. Brady, Staff Director
                John D. Cuaderes, Deputy Staff Director
                    Stephen Castor, General Counsel
                       Linda A. Good, Chief Clerk
                 David Rapallo, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2013.................................     1

                               WITNESSES

Ms. Harriet Tregoning, Director, D.C. Office of Planning
    Oral Statement...............................................     7
    Written Statement............................................    11
Mr. Marcel C. Acosta, Executive Director, National Capital 
  Planning Commission
    Oral Statement...............................................    21
    Written Statement............................................    23

                                APPENDIX

The Hon. Eleanor Holmes Norton, Opening Statement................    56
The Height Master Plan for Washington D.C., Executive Summary....    59
The Height Master Plan for Washington D.C., Final Evaluation & 
  Recommendations................................................    70
Selected Visual Modeling Images..................................   124
Letter to Mayor Gray and Mr. Preston Bryant Jr. from Chairman 
  Issa...........................................................   143
Letter to Harriet Tregoning from the Developer Roundtable........   145
ANC IC Opposition to Proposed Draft Recommendations on Changes to 
  Height Act.....................................................   147
Letter to Chairman Issa from Mayor Vincent C. Gray...............   149
Letter to Chairman Issa from Chairman of the D.C. Council, Phil 
  Mendelson......................................................   150
Referral of Proposed Legislation.................................   151
Letter to Eleanor Holmes Norton from Historic Districts Coalition   157
Letter from U.S. Commission of Fine Arts.........................   159
Letter from Capitol Hill Restoration Society.....................   161
Testimony of Commissioner Kathy Henderson, 5D05 and Chairman 
  Advisory Neighborhood 5D.......................................   171
Statement for the Record of William N. Brown, President, 
  Association, Oldest Inhabitants of D.C.........................   174
Testimony on Proposed Expansion of the DC Height Act by Loretta 
  Neumann, VP, Alliance to Preserve the Civil War Defenses of 
  Washington.....................................................   176
Letters from Kalorama Citizens Association.......................   178
Statement of James C. Dinegar, President & CEO, Greater 
  Washington Board of Trade......................................   180
Statement from American Institute of Architects..................   183
Statement From Norman M. Glasgow, Jr., Holland & Knight..........   185
Board of Zoning Adjustment.......................................   188
Statement from Coalition for Smarter Growth......................   205
Comments of the District of Columbia Building Industry 
  Association on the Reports filed by the District of Columbia & 
  NCPC...........................................................   207
Testimony of Christopher H. Collins, Counsel District of Columbia 
  Bldg. Industry Assoc...........................................   211
Premium Content from Washington Business Journal by Whayne S. 
  Quin...........................................................   220


 CHANGES TO THE HEIGHT ACT: SHAPING WASHINGTON, D.C., FOR THE FUTURE, 
                                PART II

                              ----------                              


                        Monday, December 2, 2013

                  House of Representatives,
      Committee on Oversight and Government Reform,
                                           Washington, D.C.
    The committee met, pursuant to call, at 10:05 a.m., in Room 
2154, Rayburn House Office Building, Hon. Darrell E. Issa 
[chairman of the committee] presiding.
    Present: Representatives Issa, Meadows, Norton and 
Connolly.
    Staff Present: Ali Ahmad, Senior Communications Advisor; 
Will L. Boyington, Press Assistant; Molly Boyl, Deputy General 
Counsel and Parliamentarian; Lawrence J. Brady, Staff Director; 
Daniel Bucheli, Assistant Clerk; John Cuaderes, Deputy Staff 
Director; Howard A. Denis, Senior Counsel; Adam P. Fromm, 
Director of Member Services and Committee Operations; Linda 
Good, Chief Clerk; Mark D. Marin, Deputy Staff Director for 
Oversight; James Robertson, Senior Professional Staff Member; 
Laura L. Rush, Deputy Chief Clerk; Sarah Vance, Assistant 
Clerk; Rebecca Watkins, Communications Director; Jedd Bellman, 
Minority Counsel; Peter Kenny, Minority Counsel; Adam Koshkin, 
Minority Research Assistant; Julia Krieger, Minority New Media 
Press Secretary; Elisa LaNier, Minority Director of Operations; 
Daniel Roberts, Minority Staff Assistant/Legislative 
Correspondent; and Juan McCullum, Minority Clerk.
    Chairman Issa. Good morning, and welcome. The committee 
will come to order.
    The Oversight Committee exists to secure two fundamental 
principles: First, Americans have a right to know that the 
money Washington takes from them is well spent; and, second, 
Americans deserve an efficient, effective government that works 
for them. Our duty on the Oversight and Government Reform 
Committee is to secure these rights. Our solemn responsibility 
is to hold government accountable to taxpayers, because 
taxpayers have a right to know what they get from their 
government. So our job is to work tirelessly in partnership 
with citizen watchdogs to deliver the facts to the American 
people and bring genuine reform to the Federal bureaucracy.
    Today's hearing is an oversight hearing, but it is not on 
waste, fraud or abuse. In this case today's hearing is on 
neglect. Limitations on the building heights in the District of 
Columbia stretch back to 1791 when President George Washington 
issued regulations on buildings in the city, stating that the 
wall of no house is to be higher than 40 feet to the roof in 
any part of the city, nor shall any be lower than 35 feet on 
any of the avenues. As we all know, George Washington cared a 
great deal about architecture and helped in the design of this 
city and, of course, the roads leading to it.
    In 1889 and again in 1910, Federal legislation was enacted 
to restrict building heights in the District of Columbia. The 
Heights of Building Act of 1910 was the last time that major 
legislation was considered before this body. At that time it 
modified the maximum heights for buildings and added 
enforcement measures for the first time, and it made clear that 
there were Federal interests in maintaining certain 
characteristics of the city, and that is true today.
    Under the law, no building could be erected higher than the 
width of the adjoining street plus 20 feet, in residential 
areas that is. No building could be constructed higher than 85 
feet in commercial areas. No building could be erected greater 
than 130 feet between the streets of First Street and 15th 
Street, Northwest. And on the Pennsylvania side, on the north 
side of Pennsylvania Avenue, there was a height restriction 
capped at 160 feet. One hundred sixty feet. At that point it's 
only a couple of inches higher than 60 feet to the top of the 
White House. So even then the heights above the most revered 
building in Washington were 100 feet above the White House.
    The 1910 law very rightfully paralleled limitations in many 
U.S. cities during the time. However, unlike other cities who 
began modifying their height restrictions in 1915, the District 
of Columbia has maintained largely unchanged for 100 years. I 
might note all of these laws and the last attention to the 
Height Act came long before home rule, long before the city 
began organizing and running itself in a modern way.
    Last year, on July 19th, 2012, our D.C. Subcommittee held a 
hearing to explore whether or not this century-old law should 
be modified and, if so, how. After that subcommittee hearing, I 
wrote the National Capital Planning Commission and the District 
of Columbia to ask them to work jointly to answer these 
questions. Although the right and the obligation lies 
completely within Congress, under home rule there is no 
question that it should be done in concert with the desires of 
the people of the District of Columbia.
    Ultimately, the District of Columbia Office of Planning and 
the NCPC came to completely different conclusions about the 
need for change of the Height Act, and even further, there 
seems to be a growing dissension between city councilmen and 
the Mayor. Today we will hear from NCPC and the D.C. Office of 
Planning on their separate proposals.
    I am here today because we will not close the Height Act 
consideration without full consideration, without full 
recognition of the benefits and the challenges in any changes 
to the Height Act and let it go to sleep for another 100 years.
    Would you put the first picture up, please? Quickly.
    During the process of review--go to the next one--the next 
one. There we go. The next one. One more. Next one. There we 
go.
    During the process of review, we began to look at things 
that other cities have done and are great establishments.
    Go one more picture.
    And we understand that this may not be exactly everyone's 
look, but you will notice that they're architecturally 
different than they are today. The recognition is that 100 
years from now, we will not have all the early 1900 buildings.
    One more.
    It may look like this.
    One more. Back. Back one more.
    It may look like this, or it may look much like it does 
today.
    The question is will it be in keeping with the best 
interests of the Federal city as the seat of government for the 
American people and consistent with the best interests of the 
people of the District of Columbia? That's a question we're 
going to hear today. That's the reason this committee is 
putting so much time into it.
    Chairman Issa. To give another opening statement, I would 
recognize the gentlelady from the District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman. And I thank you, 
Chairman Issa, for scheduling today's hearing as a follow-up to 
your hearing last year, the first hearing in anyone's memory on 
the Height Act. In more than 20 years of service, neither 
business interests nor D.C. residents have approached me 
regarding changing the Height Act, but I supported Chairman 
Issa's call for a hearing on whether a 100-year-old law 
continues to serve the interests of both the Federal Government 
and the District of Columbia.
    The witnesses at that hearing, the National Planning 
Commission, the D.C. Office of Planning, the D.C. Chief 
Financial Officer, architect Roger Lewis, the D.C. Building 
Industry Association and the Committee of 100 on the Federal 
City opened the issue. But the chairman wisely called on D.C. 
and NCPC to conduct a joint study of the Height Act, which I 
supported, with results that bring us here today.
    May I add how much I appreciate that this hearing reflects 
the chairman's pattern of unfailing support not only for the 
city's ongoing needs, including most recently his strong 
assistance in keeping the D.C. government open throughout the 
entire fiscal year after the Federal Government shut down, and 
the chief financial officer vacancy and salary bill he quickly 
got through committee and to the floor. I also appreciate the 
chairman's energetic and innovative work for budget autonomy 
and his strong support on many occasions for home rule, which 
he has raised as a factor in connection with the Height Act.
    As the Height Act study unfolded in community meetings and 
hearings over the past year, it became clear that many D.C. 
residents fear the loss of the unique horizontal scale that is 
part of the city's hometown identity, and that there are 
differing views on whether or how it should be changed. In 
fact, the D.C. government itself appears divided. Twelve of the 
thirteen members of the D.C. Council cosponsored a resolution 
calling for no changes to the Height Act, quote, ``at this 
time,'' while the Mayor has recommended several changes to the 
Height Act.
    It is not surprising that the Height Act stirs passions and 
divisions. The Height Act implicates many important issues: 
home rule, D.C. status as the Nation's Capital, economic 
development, city planning, affordable housing, architecture, 
historic preservation, among many others. The District Office 
of Planning argues that changes may be necessary to accommodate 
projected population and job growth and to reduce the cost of 
housing in the future, and that the historic character of the 
city can still be preserved.
    Opponents of changes argue just the opposite. They say that 
there is sufficient capacity in D.C. to accommodate projected 
population and job growth, that changes would increase the cost 
of housing, that changes would slow the spread of economic 
development across the city to areas that need development, and 
that changes would destroy the historic character of the city.
    At bottom, the issue raised by the study the chairman 
requested unavoidably is if changes ever prove necessary, who 
should make changes to the Height Act affecting hometown D.C., 
the D.C. government or the Federal Government, and under what 
circumstances?
    Every year the underlying development issues have been part 
of my own work here in the Congress. I spend considerable time 
both fending off attacks on home rule and proposing its 
expansion with local democracy, full congressional voting 
rights, budget autonomy and statehood, which have been and will 
continue to be overriding concerns.
    Yet like any Member of Congress, one of my principal jobs 
also has been to bring jobs and economic development to my 
district. In my role as the chair of the Economic Development 
Subcommittee, I took great interest in land development to 
bring affordable housing and jobs to the city. Much of the 
city's development depends upon the Federal Government either 
because it owns a significant percentage of the land throughout 
the city, or because the location of Federal agencies in 
neighborhoods almost always stimulates the mixed-use 
development that residents desire.
    My bills and other committee work have created new 
neighborhoods all away from downtown. In NOMA, at the Capitol 
Riverfront, on the Southwest Waterfront, and in Ward 8 where 
the new Department of Homeland Security complex of buildings is 
rejuvenating Martin Luther King, Jr., Avenue. Naturally I am 
interested in whether the spreading of development away from 
downtown would be helped or hampered if space for Federal and 
private offices were allowed in taller buildings.
    When it comes to the Height Act, I wear two hats. As a 
Federal official I have an obligation to protect monumental 
Washington as a national symbol, as well as the values 
residents have come to associate over time with the scale of 
city life imposed by the Height Act. At the same time, as the 
congressional representative for the District, I have spent my 
career fighting for the District to have the right to make its 
own decisions, as every other local government in our country 
does. I have not regarded the two obligations as 
irreconcilable.
    The differences between today's two witnesses, one Federal 
and one local, should not be allowed to mask internal 
differences within the District that the city should confront. 
I have not had the opportunity to speak personally with Mayor 
Gray as yet to hear his views, but D.C. Council chair Phil 
Mendelson called me, and in that conversation I learned more 
about his concerns and perhaps the concerns of some other 
members of the council.
    Unlike any other issue I have encountered while serving in 
the House, the concern seems not to be with what the Congress 
does, but with what the District itself will do. How ironic. 
There is fear that economic forces, perhaps pulled by business 
interests, would lead to undesirably tall buildings. The 
implicit argument is that Federal authority is necessary to 
protect the District from itself.
    Although in my own congressional work on development here, 
no developer has ever approached me about the Height Act, there 
is some evidence from a 1990 council bill of only three 
congressional disapproval resolutions overturning D.C. 
legislation since the 1973 Home Rule Act. One involved the 
Height Act. In that case the council was convinced by a 
developer that buildings adjacent to public buildings could 
exceed the overall limits set forth in the Height Act because 
the Height Act permitted the District commissioners to select a 
schedule of heights for buildings next to public buildings. 
Congress, along with the Government Accounting Office and the 
Justice Department, disagreed, and the legislation became one 
of only three that have been disapproved through that process.
    If the city had authority on its own to change the Height 
Act in hometown D.C., such changes might come to Congress for a 
layover period, but there might be no violation of the Federal 
interest to justify congressional intervention. Surely there is 
a better solution than coming to Congress to request that 
Congress violate a home rule decision or having the D.C. Height 
Act with too little defense against local interpretations and 
exceptions with results opponents fear.
    Considering the strong views of District residents on home 
rule and, candidly, the risk to home rule posed by internal 
disagreement, I believe that elected officials have an 
obligation to avoid home rule division if at all possible. Are 
the differences between the NCPC and the D.C. Office of 
Planning so far apart that they cannot be reconciled? Even the 
D.C. Office of Planning position would not free the District 
from the existing multilayered Federal and District planning 
processes.
    Are there changes in the comprehensive plan process, zoning 
process or local legislation that would give residents a 
meaningful opportunity to deter or stop risky changes in the 
District by the District? If changes by Congress to the Height 
Act are contemplated, should they be contingent on changes in 
the comprehensive plan process, zoning processes, local 
legislation or other changes as well? Can discussions between 
the council and the Mayor reconcile their differences between 
the two positions we hear today?
    I hope the city confronts the issue before us consistent 
with its position on the scale of heights in our city and its 
position for two centuries that the District, not Congress, 
must make its own decisions. I appreciate very much the 
intensive work of today's very knowledgeable witnesses and look 
forward to hearing from them and to learning more from them of 
their study about the Height Act, whether changes are 
necessary, and, if so, the best way to see that they occur 
responsibly.
    I thank you very much, Mr. Chairman.
    Chairman Issa. I thank you, Eleanor.
    Chairman Issa. Anyone else want to make any short comments?
    Mr. Meadows.
    Mr. Meadows. Very briefly. I just want to thank the 
witnesses for coming and really want to thank the chairman. 
This particular issue of D.C. autonomy has been one that the 
chairman has championed really in a bipartisan way, which is 
really refreshing and unique, and I just look forward to the 
testimony, specifically looking forward to the testimony from 
an economic standpoint on why we need to address this now.
    So as a developer and as someone who's made a living for 
many, many years in the real estate business, I look forward to 
your expert testimony.
    I yield back. Thank you, Mr. Chairman.
    Chairman Issa. Thank you.
    Chairman Issa. Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. I also want to 
applaud you and Ranking Member Norton for your leadership on 
this issue. This committee has a tradition of respecting and 
trying to move forward home rule for the District of Columbia, 
and I thank you for your leadership in this area.
    You know, it is important. You mentioned, Mr. Chairman, in 
your opening remarks that this issue goes back to 1791 in the--
--
    Chairman Issa. But not I.
    Mr. Connolly. But not you nor I. But it is interesting to 
note that the correspondence governing this issue between 
Thomas Jefferson and George Washington actually expressed 
concern--the height issue was less an aesthetic issue and more 
of a very practical one. They were concerned about fire. In 
those days, in the 18th century, fire was an ever-present 
hazard in all human habitation, in all cities, and not least of 
which the new Federal Capital City. So some of those concerns 
are long past us.
    I would like to make three points as somebody who comes 
from local government. One is that the Constitution and the 
founding of D.C. had within it a built-in tension between the 
needs of the Federal Capital and, therefore, the role of 
Congress and the President, and the fact that a burgeoning 
local government needed to be established to deal with the 
local issues governing any city like Washington, and that 
tension is built into the system.
    I come down in favor of moving home rule and full voting 
rights to full expansion. I think D.C. disenfranchisement in 
terms of the franchise and the fact that my dear friend and 
colleague Ms. Norton does not have a vote on the floor of the 
full House I think is really a national shame, and politics 
shouldn't have anything to do with it. The citizens of D.C. are 
entitled to representation, full representation, voting 
representation in the United States Congress.
    Finally, I operate on the principle that, generally 
speaking, deference should be given to the local government. It 
is not the role of Congress to play mediator between the Mayor 
and D.C. City Council. Their form of government allows them to 
resolve those differences, as any other municipality in America 
does. So I think we should be loathe to involve ourselves 
unless clear and compelling Federal issues are involved, and 
that this issue, like many other issues involving home rule, 
should largely be left to the discretion of the local 
government.
    With that, Mr. Chairman, I look forward to the testimony 
this morning.
    Chairman Issa. Thank you.
    Chairman Issa. All Members will have 7 days to submit 
additional opening statements and extraneous material for the 
record.
    Chairman Issa. We now recognize our distinguished panel. 
Welcome. Ms. Harriet Tregoning is the Director of the D.C. 
Office of Planning. Mr. Marcel Acosta is the Executive Director 
of the National Capital Planning Commission, or NCPC.
    Pursuant to the rules, would you please rise to take the 
oath and raise your right hands.
    Do you solemnly swear that the testimony you give will be 
the truth, the whole truth, and nothing but the truth?
    Please be seated.
    Let the record reflect both witnesses answered in the 
affirmative.
    My script says you have limited time, 5 minutes and so on, 
but this hearing is all about what your two organizations have 
done, so if you need a little extra time, I'm not going to cut 
you off, and we're going to do the same with questioning.
    So please, Ms. Tregoning.

                 STATEMENT OF HARRIET TREGONING

    Ms. Tregoning. Thank you very much.
    Good morning Chairman Issa, Congresswoman Norton, members 
and staff of the committee. I am Harriet Tregoning, the 
Director of the District of Columbia Office of Planning. Thank 
you very much for this opportunity to appear before your 
committee today on behalf of Mayor Vincent C. Gray in support 
of the District of Columbia's proposed changes to the 1910 
Federal Heights of Buildings Act. We've made recommendations 
for very modest changes to the Height Act intended to give the 
District the opportunity to exercise local autonomy in 
determining the future heights of buildings in areas of the 
city where Federal interests are less significant, while at the 
same time maintaining existing protections for Federal 
interests over height.
    The District of Columbia is a growing city, now robustly 
adding population after more than five decades of steady 
population loss. Since the 2010 census we have grown to 632,323 
District residents as of July of last year, and we continue to 
add more than 1,000 residents a month.
    The District has begun to realize a long-held aspiration of 
retaining and attracting middle-class households and families 
back to the city. The population growth has boosted sales and 
income tax revenue even during the last recession. We are now 
seeing a pattern. Added residents are bringing increases in 
District tax revenues, which then fund greater investment in 
services, in infrastructure, in other amenities for residents, 
workers and visitors to the District.
    This turnaround has been the result of very hard work by 
successive mayoral administrations and councils addressing 
crime, city services, transportation and transit, neighborhood 
retail, public school performance, upgrades of public 
infrastructure, new or revitalized libraries, parks, rec 
centers and schools. This hard-won population growth and the 
accompanying boost in local tax base are critical to the 
District's fiscal stability because this city has nearly 50 
percent of its land off the tax rolls.
    Our fiscal stability has to be sought and maintained on a 
much smaller, less diverse tax base than other cities. Dr. 
Gandhi, the District's Chief Financial Officer, testified 
before this committee last year that allowing taller and denser 
buildings by relaxing height and density restrictions would 
generate more residential units and commercial space, thereby 
helping the District more easily accommodate future population 
and job growth, as well increasing the value of the District's 
property base over time. These changes, he noted, would 
eventually slow the rising cost of housing and office spaces, 
already becoming too expensive for some residents and 
businesses.
    The concern that we bring before you today is that the 
current Height Act limits constrain the city's ability to grow 
and accommodate future demand, which in turn threatens our 
ability to maintain our fiscal stability and continue to 
provide critical services to residents, workers and visitors of 
the city. The District proposes allowing the city to have more 
autonomy to work with its residents, the D.C. Council and the 
National Capital Planning Commission to determine building 
height maximums throughout a collaborative future comprehensive 
plan process.
    There's one thing I want to emphasize about this proposal. 
The opposition we've heard, and we have heard opposition, to 
our recommendations, is primarily about opposition to actually 
and perhaps immediately raising building heights and doing so 
without the consultation with residents that they deserve. This 
is not what we are proposing.
    The District is asking Congress for the ability to 
determine with our residents, with our council, with the 
National Capital Planning Commission whether to increase any 
height, and, if so, when, where and how to do it. The current 
law makes any such conversation moot, which is why we've never 
had that conversation before.
    As more fully detailed in our report, we examined various 
reasonable future growth scenarios for D.C. The high-growth 
scenario that we examined using growth rates that are 
considerably lower than our current rate of growth indicated 
that the District will be experiencing capacity shortages well 
before 2040, even if we rezoned land throughout the entire 
city. Currently zoned land available for development would 
become increasingly scarce and see price pressure well before 
the next decade.
    The District of Columbia and the National Capital Planning 
Commission recently completed the Joint Height Master Plan 
requested by this committee to determine the extent to which 
the Height Act continues to serve both the Federal and local 
interests. The study was guided by three core principles which 
were designed to ensure protection of the Federal interests: 
Number one, ensuring the prominence of Federal landmarks and 
monuments by protecting their views and settings; number two, 
maintaining the horizontality of our monumental city skyline; 
and, three, minimizing the negative impacts to nationally 
significant historic resources.
    We modeled different buildings heights in the city using 
over 200 panoramic aerial and street-level views of the city in 
various locations inside and outside the District of Columbia. 
These modeling studies in particular indicated that there were 
options for making modest changes to the Height Act while fully 
addressing the core principles of the height master plan and 
protecting the Federal interests.
    We also conducted analysis of future population and 
employment growth, existing development capacity, and the 
potential new capacity under various approaches to manage 
height to determine how well the District could accommodate 
future demands. The analysis demonstrated that the current 
Height Act limits constrain existing capacity to accommodate 
our growth over the next three decades, and will increasingly 
do so in subsequent decades, and that the District requires 
additional capacity in the future to meet our demand.
    Our recommendations for Height Act modifications will 
enable the city to create a supply of developable space to 
accommodate future growth, maintain the character of the city's 
many historic neighborhoods, and avoid extreme upward price 
pressures on housing supplies that could greatly and negatively 
affect the city.
    We believe that the Height Act can be reasonably modified 
to strike a balance between accommodating future growth and 
protecting significant national monuments and memorials. Our 
proposed approach shifts more decisionmaking indeed to local 
control, but maintains a very strong Federal consultation and 
approval role in order to accommodate future growth. Doing so 
will ensure a more prosperous, stable and vibrant District of 
Columbia, where residents enjoy a stronger and more resilient 
economy. The District's social, cultural and economic diversity 
will also be protected. The alternative of retaining unchanged 
a century-old law that constrains the city's ability to 
accommodate growth will place the District on the path to 
becoming a city comprised primarily of national monuments 
surrounded by exclusive neighborhoods affordable only to a very 
few.
    What we propose specifically are the following 
recommendations to modify the Height Act. Amend the Height Act 
to create new limits based on the relationship between the 
street width and the building height within the L'Enfant City. 
We recommend using a ratio of 1 to 1.25 for street width to 
building height, resulting in a new maximum building height of 
200 feet for 160-foot-wide avenues in the L'Enfant City. This 
is an urban design-based standard that reflects the 
proportionality between individual streets and their buildings 
to give us what we currently love about the L'Enfant City, a 
pedestrian scale, light and air, and variation; not an 
unpleasing uniformity, but variation in building heights, 
maintaining horizontality, but having pleasing variation based 
on street width.
    To ensure that the tops of any future taller buildings 
contribute to the use of and views from rooftops, mechanical 
penthouses for any buildings that would gain more height we 
propose be required to be enclosed within the upper floors 
within the new height cap.
    The second part of our proposal is language that we 
developed with the Chairman of the National Capital Planning 
Commission and the staff to limit--to allow the limits 
currently established in the Federal Height Act to remain in 
place unless and until the District of Columbia completes an 
update to the District elements of the comprehensive plan where 
targeted areas that meet specific planning goals and don't 
impact Federal interests are identified.
    Under this recommendation, building heights in targeted 
areas such as Friendship Heights at the edge of the District 
may be proposed to exceed the maximums under Federal law, and 
these may be authorized through the existing comprehensive plan 
process that also includes a congressional holdover period. 
Should targeted exceptions be authorized through the comp plan, 
the Height Act would remain in place for all other areas both 
inside and outside the L'Enfant City.
    The third thing that we propose is to amend the Height Act 
to remove any Federal restrictions on the human occupancy of 
penthouses, and to set the maximum height of 20 feet and 1 
story. Mechanical equipment will be continue to be required to 
be housed within a single structure, and that penthouse would 
be subject to a setback.
    You might have more questions about the comprehensive plan, 
which I would be happy to answer, but in the meantime, what I 
would like to do is just conclude by saying that both the 
Federal and the local interests are served by having a vibrant, 
economically healthy and liveable Capital City. However, 
without changes to the Height Act to enable the District to 
expand its tax base, protect affordable housing and make 
further infrastructure investments, the vibrancy and fiscal 
stability as well as the character of the city's many historic 
neighborhoods are threatened. We believe that allowing the 
District to exercise more local control over how building 
height will be managed in the city, while protecting existing 
Federal controls over height will prevent those threats from 
happening.
    On behalf of Mayor Gray, I respectfully ask for your 
support for these reasonable amendments to the Heights of 
Buildings Act. Thank you.
    Chairman Issa. Thank you.
    [Prepared statement of Ms. Tregoning follows:]
    [GRAPHIC] [TIFF OMITTED] 86796.001
    
    [GRAPHIC] [TIFF OMITTED] 86796.002
    
    [GRAPHIC] [TIFF OMITTED] 86796.003
    
    [GRAPHIC] [TIFF OMITTED] 86796.004
    
    [GRAPHIC] [TIFF OMITTED] 86796.005
    
    [GRAPHIC] [TIFF OMITTED] 86796.006
    
    [GRAPHIC] [TIFF OMITTED] 86796.007
    
    [GRAPHIC] [TIFF OMITTED] 86796.008
    
    [GRAPHIC] [TIFF OMITTED] 86796.009
    
    [GRAPHIC] [TIFF OMITTED] 86796.010
    
    Chairman Issa. Mr. Acosta.

                 STATEMENT OF MARCEL C. ACOSTA

    Mr. Acosta. Good morning, Mr. Chairman, Congresswoman 
Norton and members of the committee. My name is Marcel Acosta. 
I am the Executive Director of the National Capital Planning 
Commission, a 12-member body that has Federal and District of 
Columbia representatives, reflecting its role as a forum to 
consider local and national planning issues.
    It's been a privilege for NPCP to jointly lead the height 
master plan as requested by the committee. The plan explores 
potential changes to the Federal Height Act that both protects 
national interests and meets important long-term goals for the 
District.
    For more than a century, the Height Act has played a 
central role in shaping Washington's unmistakable and symbolic 
skyline that protects the setting and views to and from the 
National Mall, the institutions of our democracy, and our 
national parks and memorials.
    Our written testimony and executive summary includes-- and 
you have that before you--first a discussion of Federal 
operational and national interests related to heights; second, 
our approach to the study, including public outreach and visual 
modeling. Here it is of note that, as you mentioned before, 
that a majority of District residents who testified strongly 
support upholding the Height Act; third, the commission's final 
recommendations.
    This morning I will speak to the Commission's central 
recommendation that the Federal Height Act should remain in 
place citywide and no change be made to the formula or approach 
for calculating allowable building heights.
    The visual modeling work conducted for the height study 
shows the potential for significant adverse impacts to national 
resources, particularly within the L'Enfant City.
    If you would turn the slides back on, and if you would go 
back to the beginning, please.
    I'll show you a few examples where increased building 
heights affect settings and views, and I will refer you to the 
screen.
    If you go to the next slide.
    You will recognize this view of the National Mall from the 
U.S. Capitol. This is one of the most important settings in our 
city and in our country.
    Next slide.
    Even at 130 feet the sense of openness around the Mall 
changes.
    The next slide.
    And at 200 feet these buildings compete with the higher 
monuments, and the Mall changes from an area framed by 
buildings, not trees and open skies.
    The next slide.
    This is a view from the Jefferson Memorial looking north 
towards the White House.
    Next slide.
    This is the current setting. These are long views of our 
national symbols, which are, again, some of the most 
significant in our country.
    Next slide.
    Here again, even at 130 feet the White House is becoming 
overshadowed.
    And next slide.
    And at 200 feet the White House is overwhelmed, and our 
skyline shows none of the elegance that we see today.
    Next slide.
    More specifically, the District is recommending a ratio 
proposal to increase heights along the city's widest streets. 
Many of these streets terminate on the White House and on the 
U.S. Capitol. Now, I also acknowledge that some of the streets 
are located in the Capitol Hill Historic Residential Community. 
This proposal adds heights to where they're least appropriate. 
We do not have composite skyline views of what this would look 
like today, but let me share one street-level view with you.
    Next slide.
    This is the existing view from North Capitol Street looking 
south. Our forefathers who established this Capital planned a 
city that emphasizes views to and from important public places. 
Here you see an example of how this vision has been realized. 
The U.S. Capitol Dome is more than just an architectural 
feature, and it caps more than just a building. These are 
symbols of lasting meaning to Americans. And in Washington our 
symbols shine. This is a fundamental principle of our city and 
also a legacy tied to our Height Act.
    Next slide.
    A visual model of the District's ratio proposal shows that 
even at 160 feet, the preeminence of the Capitol becomes 
diminished, and this fundamentally changes the way people will 
experience Washington, especially if applied throughout the 
L'Enfant City as proposed.
    So mindful of your guidance to proceed carefully in this 
area, we strongly recommend no changes to the Height Act within 
L'Enfant City. We do support amendments for human occupancy of 
penthouses and recommend further protections of critical view-
sheds.
    We also share the District's vision for a strong, vital 
Capital City that addresses long-term challenges in a very 
sophisticated, multidimensional way. We recognize there may be 
some opportunities for change outside of L'Enfant City where 
there is less concentration of Federal interests. However, we 
recommend completing an update to the comprehensive plan for 
the Nation's Capital prior to proposing any changes to the law.
    Again, we appreciate the opportunity to conduct this 
important study. This reaffirmed the importance of the Height 
Act and the Federal Government's enduring stewardship in the 
form and the character of the Nation's Capital. Thank you.
    Chairman Issa. Thank you.
    [Prepared statement of Mr. Acosta follows:]
    [GRAPHIC] [TIFF OMITTED] 86796.011
    
    [GRAPHIC] [TIFF OMITTED] 86796.012
    
    [GRAPHIC] [TIFF OMITTED] 86796.013
    
    [GRAPHIC] [TIFF OMITTED] 86796.014
    
    [GRAPHIC] [TIFF OMITTED] 86796.015
    
    [GRAPHIC] [TIFF OMITTED] 86796.016
    
    Chairman Issa. Mr. Acosta, I heard two things as we often 
hear in Washington, and examples that were the critical areas, 
I think the areas that Ms. Tregoning would also agree, the 
areas leading directly in the line of sight to the White House, 
to the Capitol, the Washington Monument, and, of course, the 
Tidal Pool area. I don't think anyone is questioning, I think 
you two are probably very much in agreement, and if the D.C. 
plan doesn't reflect that properly, then we should have a 
discussion here today.
    But I also heard you say what I think I have heard 100 
times, if not more, during my tenure on this committee, which 
is there are areas. And I heard you also say that a 
comprehensive plan should be produced before we go to them. But 
when I drive up to Northeast, I'm perhaps by the XM facility 
there, I'm so far outside of what most people see as the 
District of Columbia except for Eleanor here. When I get past--
and it is not a high-rise area, but when I get past, out to 
Cleveland Park, and I am past the cathedral, those views are no 
longer the case. And when I go to Georgetown and I look across 
the river at Virginia--and we have a distinguished Member from 
Virginia--what I see is an area much closer than the Northwest 
side of the cathedral, much closer than the XM building up by 
New York, up in the far reaches of Northeast, not to mention 
some of the areas that Eleanor has been working on developing. 
I see this area so close, it has no restriction that can, in 
fact, dwarf from there. And the question is not do we preserve 
Georgetown. I have no doubt that the city would choose to 
maintain that historic area even if the District was not 
prohibited in some way by the Federal Government.
    And those views you showed, I completely agree with them. 
But I would like you to go to the first or second one that you 
put up there, if you could, quickly. One more, one more, one 
more, one more. Pretty close. Next one. Next one. There we go. 
One more. You were there. Go one more. Go back. Right there is 
good. Stop.
    You see that ugly penthouse on the top right? I think the 
one area of agreement that I think I saw in both your findings 
was that big boxes with air conditioning towers or elevator 
shafts looking like that is an anomaly of the past of the 
Height Act, and that buildings--go to the next one where you do 
increase it. Here we go. Buildings of today and for a long time 
have a tendency not to have that on top of the roof, just as 
they no longer have water towers. Would you both agree with 
that?
    Ms. Tregoning. Certainly.
    Mr. Acosta. Yes.
    Chairman Issa. So if we do nothing else, addressing the 
penthouse issue, is that an area in which you both reached, 
subject to further consultation, agreement that we can do 
something about that architecturally and to the benefit of the 
city's potential income? Yes, Mr. Acosta.
    Mr. Acosta. Yes, I do agree that that's an area of 
consensus. As you may recall from the previous committee 
meeting, actually the Mayor had submitted some recommendations 
as to how to improve penthouse design.
    I think one of the restrictions, which is the ability to 
occupy a penthouse, is actually one of the things that kind of 
prohibits making improvements to those spaces, because as you 
have noted when you came to our meeting in March, when you look 
at our skyline, you look at the penthouses, you notice some 
wonderful things that could happen on our rooftops, such as 
rooftop gardens, balconies, places for communal recreation, 
meeting rooms, party rooms, et cetera, which actually enliven 
these spaces, but right now because of their prohibition in the 
current law which doesn't allow those spaces to be occupied, 
you don't make those investments. And I think by actually 
eliminating kind of this barrier to allowing people--this 
regulation barrier to allow more investment on the roof, I 
think, would actually do a lot to beautify these spaces and 
make them better places for the public to enjoy.
    Chairman Issa. Ms. Tregoning, I know I'm going to go to you 
in a second, but I just want to comment that although we are 
dealing with the Height Act, and primarily we're dealing with 
commercial buildings, that's what we're really looking at, as a 
Washingtonian part time, I must tell you that I am envious that 
my neighbors, many of them can go up on their roofs, 90 percent 
of them probably not with a valid permit, and sit on their 
wooden terraces and enjoy those special days and evenings here 
in Washington, where I have to go through a ladder and a 
skylight and sneak up there and stand with my air conditioners.
    So I think all of us in Washington know that view and how 
we achieve it and how the city plans for it will affect the 
value of properties, both commercial and residential.
    But, Ms. Tregoning, the penthouse issue particularly.
    Ms. Tregoning. I think we do have a considerable agreement 
on penthouses, although we may not agree exactly on the use. We 
would allow human occupancy and not restrict it in any way, and 
I don't know that that's the National Capital Planning 
Commission's position.
    I would just comment that allowing human occupancy would 
mean that the materials that were used on the tops of those 
roofs would be very different. They would be much more 
architecturally significant. They would tend to look more like 
the building itself. Right now they use very inexpensive 
materials because it's just designed to shield and hide the 
mechanical equipment, and it's never architecture, and it does 
create that very unpleasing aspect that you pointed out in the 
last photograph.
    Chairman Issa. It's certainly hard to pay for beautiful 
glass fascias if it's just for an air conditioner.
    Mr. Acosta, anything else?
    Mr. Acosta. I think Ms. Tregoning actually answered the 
question quite well.
    Chairman Issa. Very good. I would now go to the gentlelady 
from the District of Columbia.
    Ms. Norton. Thank you, Mr. Chairman.
    Ms. Tregoning, you noted the increases in residents, the 
District population boom, revenue boom. Have these residents 
had difficulty finding housing in the city?
    Ms. Tregoning. I would say that the difficulty finding 
housing in the city has mostly to do with price and the rapidly 
increasing price of housing.
    Ms. Norton. Now, let's go to what yields increasing prices 
in housing. Much of the building in housing, the housing has 
occurred on land where either there was no housing or where 
housing was such that people wouldn't want to live in the 
housing, and I indicated some of the areas that I've been 
interested in. So why has filling in those areas, or has 
filling in those areas had anything to do with what you 
indicated in your testimony was housing and office space--I'm 
looking at page 3--that is already becoming too expensive for 
some residents and businesses?
    Ms. Tregoning. Well, as you mentioned in your opening 
statement, Congresswoman Norton, the--it's been a deliberate 
strategy because downtown has been largely built out for some 
time to try to move some of the demand for office and housing 
to adjacent areas, and it's been wonderful for the city and 
wonderful for many neighborhoods to see places----
    Ms. Norton. And yet there's a huge complaint in the city 
about affordable housing. I wonder if we're promising too much 
about affordable housing; either if it stays the way it is, or 
if we had storage, or if we do what I've tried to do, I really 
wonder whether you are serious about adding a story here and 
there, making some buildings taller, not increasing the value 
of land, which has effects throughout the city.
    Ms. Tregoning. We have citywide inclusionary zoning that we 
passed in 2006. The council passed it in----
    Ms. Norton. That, of course, would mean that for some 
people--and I commend the city for this, if you're referring to 
the facts that there must be a certain number of affordable 
units in housing in the city.
    Well, let me give you NOMA, which is an area that I worked 
on for 10 years. A resident told me recently that she moved 
into NOMA under the notion you spoke about. She's a middle-
class person who works every day. So your limits are fairly 
robust, and I understand those, but she said that now that rent 
increases have become possible, there's a tremendous increase 
in rents in her area. Now, she moved in under this zoning, this 
special zoning of the District.
    Ms. Tregoning. I think your point is absolutely a good 
point in many parts of the city, although NOMA isn't subject to 
IZ because it was already allowed to be developed at the 
maximum height because there was no height to give a density 
bonus for. NOMA----
    Ms. Norton. Are you saying this only occurs where you can 
give----
    Ms. Tregoning. Give a density bonus.
    Ms. Norton. Where you can give a density bonus.
    Ms. Tregoning. Most of downtown isn't included, and NOMA 
isn't included, and historic areas are not included.
    Ms. Norton. So if you increase the height of buildings in 
L'Enfant City--and would you describe what L'Enfant City is?
    Ms. Tregoning. Well, it's the area that is essentially 
south of the escarpment. Florida Avenue, as you know, used to 
be Boundary Street. So it's basically that area of the city. We 
can show it on a map, I think.
    Chairman Issa. If I could interrupt, one might call it 
historic Washington. You're talking smaller than that, aren't 
you?
    Ms. Norton. Yeah. I want to get to the actual streets where 
you're talking about. If you're saying up to Florida Avenue----
    Chairman Issa. It is beyond what you call L'Enfant.
    Ms. Norton. It is beyond what I think most people think of 
as L'Enfant City. I think most people think you are talking 
about an area----
    Chairman Issa. I am just past Boundary, so I am very aware 
that is a long way from L'Enfant.
    Ms. Tregoning. It is the area that's shown there. It is 
Florida Avenue. It's the Potomac and the Anacostia Rivers to 
the west and to the south, and to the north it's primarily 
Florida Avenue.
    Ms. Norton. It includes K Street?
    Ms. Tregoning. It does include K Street, which is the 100 
percent street in the District of Columbia. It is the most 
heavily used transit corridor in the entire region, and it's 
where most of our business activity is concentrated.
    Ms. Norton. And you believe that if heights are raised in 
these most desirable parts of the city, places where people are 
swarming to now, that affordable housing and office space will 
become more likely than now. I would like to understand that, 
please.
    Ms. Tregoning. Well, in the L'Enfant City, if we go back to 
the map, through most of it we don't have density bonuses to 
grant in the downtown for additional height because the----
    Ms. Norton. How would that work to--how would the density 
bonuses help to keep down the cost of office space and housing?
    Ms. Tregoning. Well, for housing it would require currently 
that at least 8 percent of all the housing that's built be 
permanently affordable, as long as the building stands, for 
people making 50 percent and 80 percent of the area median 
income.
    Ms. Norton. So it's your view that if you were to add--if 
there were to be taller buildings in the most desirable parts 
of the city, there would be no effect on spreading development 
to other parts of the city?
    Ms. Tregoning. I think that you would want to allow any 
additional development capacity, wherever it is in the city, to 
be added gradually so as to not affect overly the market.
    Ms. Norton. Would you want to add capacity along K Street?
    Ms. Tregoning. Potentially along K Street. But I would also 
just say----
    Ms. Norton. Well, why would you want to do that if you 
wanted to spread office space around the city?
    Ms. Tregoning. Because even adding the modest amount of 
capacity on K Street that we're talking about doesn't narrowly 
meet the demand that we project coming to the city.
    Ms. Norton. Of course it doesn't. Don't you want--Ms. 
Tregoning, this is my point: We could not get the Federal 
Government to develop what is now Capitol Riverfront--this is 
this wonderful burgeoning area south of M Street which is a new 
community--because GSA said Federal agencies did not want to 
move so far from K Street. Now, that's not in the far reaches 
of the city. It took a bill; I had to introduce a bill in order 
to develop that part of Washington. And the same way NOMA, 
which I would say is a stone's throw from the Senate----
    Ms. Tregoning. Absolutely.
    Ms. Norton. --stood there, a shambles, close to midtown 
with no development. What I had to do, frankly, was to get a 
Federal agency to move there, and then another one, and then 
developers began to build there. Again, the Federal agencies 
were the stimulus, but the Federal Government--it was all I 
could do to pull teeth to make the Federal Government know, and 
there is an Executive Order that says they should build in 
outlying areas of the city, but the pull was so hard toward K 
Street that one would wonder why one would want to have any 
more development in that part of city, and whether it would 
not, in fact, slow development outside of L'Enfant City.
    Ms. Tregoning. If the question is whether that would slow 
development into places, you could decide when and how you 
developed in different parts of the city. And we still have a 
very keen interest in the Capitol Riverfront, in the Anacostia, 
in Poplar Point, in St. Elizabeth's, so those would remain city 
priorities in terms of enticing development to those locations.
    But our projections show with all of those places and the 
places that we proposed very modest height increases for inside 
the L'Enfant City, that we would still be looking at 
significant potential capacity constraints.
    Chairman Issa. Thank you.
    Eleanor, we are going to do a second round, if that's okay.
    Mr. Meadows.
    Mr. Meadows. Thank you, Mr. Chairman.
    I want to pick up a little bit. You keep talking about the 
historic nature and about preserving the historic nature in 
your testimony. What historic nature are we talking about? 
Because this seems to be counterintuitive. If we are going to 
protect the historic nature, what are we talking about there?
    Ms. Tregoning. So as part of a study that we did with the 
National Capital Planning Commission, we jointly agreed on some 
principles that would govern the study and that would govern 
our conclusions and recommendations, including determining that 
the Federal landmarks and monuments would continue to be 
prominent and preserve their views and settings.
    Now, what's so interesting about the design of our city is 
that most of our streets, especially our diagonal streets, are 
designed with the beautiful views that terminate at the end of 
street. So having a little height, additional height, on many 
of the streets doesn't affect the views. In some cases it 
enhances the views that frame the building at the end of the 
street even better.
    We also talk about maintaining the horizontality of the 
skyline. That's also something iconic----
    Mr. Meadows. You're talking about primarily in those 
corridors as it looks to the Capitol. You are not talking about 
the historic nature of a neighborhood that is a mile out.
    Ms. Tregoning. I am talking about those historic 
neighborhoods in the following sense, that if----
    Mr. Meadows. Let me be specific. Like Henry's Soul Food 
that's right around the corner, is that historic, or is that 
not historic? That's the Mount Vernon Triangle. And I live in 
the city, and there's no one who wants cheaper rent than I do, 
I promise you that. But at the same time----
    Chairman Issa. You can live in your office.
    Mr. Meadows. I'm not living in my office.
    Is Henry's Soul Food, is that considered historic, or could 
that be torn down and developed?
    Ms. Tregoning. So the actual building, I couldn't tell you 
off the top of my head, but that is a neighborhood that is 
designated a historic neighborhood. And so you raise a really 
critical point with your question, which is if we don't have 
any increases in height, the city can accommodate its growth, 
but it would probably change the character of most of our 
neighborhoods, because we would have to change those buildings. 
So having a row house neighborhood that's primarily two 
stories, if we made it four stories or eight stories, we could 
accommodate a lot of growth, but those neighborhoods be very, 
very different.
    Mr. Meadows. Right.
    Ms. Tregoning. Or we could accommodate the same amount of 
development in taller buildings in smaller--in fewer places and 
protect those neighborhoods.
    Mr. Meadows. But your point is exactly where I'm going, 
because we would not see what has happened over by the ball 
field or the Navy Yards or any of that urban renewal if we 
allow the concentration to be downtown. It does not sprawl out. 
Now, if that's what we're--if that's what we're wanting to see, 
but what it does is creates pockets of unsure and 
questionable--we walk all over the city, and so there are 
certain areas that we walk in and certain areas that we don't, 
but that's based on that urban renewals aspect. And I live I 
think what they call a transitional area. Based on price, it 
wouldn't be transitional, but how does adding two stories to a 
building downtown actually make for more affordable housing, 
because I'm in this--I've been in this business for 28 years, 
and I don't see--because location is what you pay for, and if 
we add two stories to a building that's closer to the Capitol, 
generally what that will do is translate into much higher 
dollars for that rent, not lower. And that's following up on 
what Ms. Norton said.
    Ms. Tregoning. So high rise buildings definitely have 
higher construction costs, but we do have city-wide 
inclusionary zoning. And the only reason it does not apply in 
some parts of the city is because we didn't have the height 
left----
    Mr. Meadows. Right.
    Ms. Tregoning. --to allow the density bonus that is the 
thing that enables it to happen.
    Mr. Meadows. Right.
    Ms. Tregoning. So that's one way in which that happens, but 
it's also true that we have tremendous demand for housing 
throughout the city. In the last year, our average housing 
price went up 22 percent. It's now $800,000 for a home on 
average in the District of Columbia. So what's happening is 
people who can afford $1 million house don't have enough 
million dollar house supply, so they start looking for $800,000 
houses.
    Mr. Meadows. Right.
    Ms. Tregoning. The people who were buying $800,000 houses 
are seeing those prices bid up. They start buying $600,000 
houses.
    Mr. Meadows. Right.
    Ms. Tregoning. And it trickles down and the price at every 
level ends up rising. So part of it is increasing the supply, 
period, at every level affects the housing and the price of 
housing that's available throughout the entire market. The 
other thing is specifically in places where we haven't been 
able to offer inclusionary zoning with density bonuses, now we 
could do that.
    I will finally say that we saw a lot of the modeling that 
showed city-wide increases. What we've actually proposed inside 
the L'Enfant City, it's a very, very few streets that would be 
affected. The vast majority of streets would not be affected. 
So it's not even like we're adding an enormous amount of supply 
inside the L'Enfant City, but we're adding it in places where 
it reinforces that urban design relationship that we really 
love about Washington, the height of buildings related to the 
width of streets that makes the city so walkable, so 
interesting and so pedestrian-friendly.
    So we're saying the horizontality, the prominence of the 
monuments and memorials are unaffected by the proposal that 
we're talking about inside the L'Enfant City, but it does give 
us some critical capacity that, along with development outside 
the L'Enfant City in other parts of the city would accommodate.
    Mr. Meadows. So how many square feet are we talking about 
in this critical area are you talking about adding?
    Ms. Tregoning. I think it's about 109 million square feet 
total over time, which isn't an enormous amount, inside the 
L'Enfant City.
    Mr. Meadows. So how would that affect prices? If it's not 
an enormous amount, how would it affect prices?
    Ms. Tregoning. Well, and it would be about 317 million 
outside the L'Enfant City. So together, it would add a lot of 
supply and at least moderate----
    Mr. Meadows. I'll wait for the second round. I see I'm out 
of time. That's a hard sell for me. You know, as you start to 
look at the economics, that's a real hard sell. So I will 
follow up, but I'll yield back. Thank you.
    Chairman Issa. Mr. Meadows, I'm surprised you didn't ask 
what you thought the--ask what the average square foot per 
square foot costs of that development would be. I've noticed 
there's a lot of $1000-a-square-foot development going on in 
D.C. sometimes.
    The gentleman from Virginia, Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And welcome, Ms. 
Tregoning and Mr. Acosta. I enjoyed working with both of you in 
local government and regional bodies over the years. Did I just 
hear you say, Ms. Tregoning, that you're talking about 109 
million square feet?
    Ms. Tregoning. Yes.
    Mr. Connolly. New?
    Ms. Tregoning. [Nonverbal response.]
    Mr. Connolly. If my friend is familiar with Tyson's Corner, 
that's almost 2-1/2 times the size of everything that's in 
Tyson's Corner, one of the emerging edge cities in the United 
States, so that's a lot of square footage.
    To your point, Mr. Meadows, I would also say just from my 
own observation, having worked on affordable housing, the best 
way to get affordable housing is to preserve what you've got. 
The idea that you're going to construct new affordable housing 
is, frankly, very problematic, even with the affordable density 
bonus that most jurisdictions, in fact, do try to encourage, 
but very difficult given today's construction costs. And so, 
you know, preservation's the key, and that may have something 
to do also with building height, because the two may not be 
compatible, but in terms of changing building height while 
trying to preserve affordable housing, so----
    Let me just read what the Founders said they wanted to 
achieve in the design of the city. They envisioned, ``a city 
with sweeping vistas that emphasized civic structures and an 
orderly system of boulevards with reverential private 
buildings.''
    Is that spirit still something the National Capital 
Planning Commission follows, Mr. Acosta?
    Mr. Acosta. Yes. I think our recent updates to our comp 
plan, for instance, talk about the importance of vistas to and 
from the monuments throughout the city. I think that's not only 
a national interest issue, but I think the residents of our 
city enjoy that, too.
    Mr. Connolly. And Ms. Tregoning, listening to you describe 
things like pleasant views, it sounds consistent with also that 
original vision for the city.
    Ms. Tregoning. Absolutely.
    Mr. Connolly. Help us understand a little bit the statutory 
framework here. I'm familiar with how we work in Virginia, but 
it may be a little bit different, because the National Capital 
Planning Commission, you have limited--I remember we had to 
submit things to the National Capital Planning Commission, but 
you didn't have statutory authority over zoning or planning per 
se in Virginia, did you?
    Mr. Acosta. Not in Virginia. We--except for Federal 
property.
    Mr. Connolly. Right. But to the chairman's point, for 
example, if you look at Rosslyn in Arlington, lots of high 
rises, much closer to the L'Enfant part of the city, as the 
chairman pointed out, than say parts of northwest. You have no 
jurisdiction with whatever goes on in the County of Arlington?
    Mr. Acosta. Except for Federal property.
    Mr. Connolly. Pardon me?
    Mr. Acosta. Except for Federal properties.
    Mr. Connolly. Except for Federal properties. So do you have 
statutory authority over the planning process in the District 
of Columbia?
    Mr. Acosta. Yes, we do.
    Mr. Connolly. Irrespective of whether they're Federal 
properties or not?
    Mr. Acosta. It's--well, we look at certain zoning proposals 
in an advisory role to the District. The comprehensive plan for 
the Nation's capital both have Federal elements and local 
elements, as prescribed by the law, and that we work jointly in 
terms of putting together that plan, the focus has been.
    Mr. Connolly. Exactly. So the adoption of a comprehensive 
plan by the District of Columbia is not entirely its own 
willful act. It involves your consent, your review?
    Mr. Acosta. Yes, it does.
    Mr. Connolly. And potentially a veto?
    Mr. Acosta. Yes, it does.
    Mr. Connolly. The comprehensive plan, the D.C. law, is 
required before any zoning occurs?
    Ms. Tregoning. That's correct.
    Mr. Connolly. And it presumably, like Virginia law, it runs 
with the land, so whatever the FAR on a particular site or the 
language granting density runs with the land. Is that correct?
    Ms. Tregoning. Right. And zoning cannot--must be not 
inconsistent with the comprehensive plan.
    Mr. Connolly. When you're talking about building height 
changes, you know, we're going to add some stories, you're 
changing the FAR, the floor-to-area ratio. Is that consistent 
with the existing comprehensive plan or would you have to amend 
the plan to take that into account as well?
    Ms. Tregoning. We would have to amend the plan to take that 
into account, absolutely.
    Mr. Connolly. And do we care about, Mr. Acosta, FAR? We're 
talking building heights, but what about the mass of a building 
on the same footprint?
    Mr. Acosta. It's an important issue, I think. We do take a 
look at that, but in terms of reviewing it against conformity 
with the Federal law, it is about heights.
    Mr. Connolly. Ms. Tregoning and Mr. Acosta, are you 
familiar the residential high rise building called the Cairo?
    Mr. Acosta. Yes.
    Ms. Tregoning. Very familiar.
    Mr. Connolly. Now, refresh my memory. I used to--my wife 
and I had an apartment on P Street, and I am old enough to 
remember when that building, which had really been run down and 
became a flophouse, was bought and renovated, and there were 
stories at the time that that building exceeded the height 
limits in Washington, D.C. Is that correct?
    Ms. Tregoning. It's the thing that caused the height limits 
to be. There were no height limits in the District until that 
building arose at 164 feet.
    Mr. Connolly. And when did that occur?
    Ms. Tregoning. In the late part of the 19th century.
    Mr. Connolly. So that triggered, in many ways, the 
discussion we're having right now?
    Ms. Tregoning. I mean, Mr. Connolly, you are very familiar 
with local government. So the residents and the citizens in the 
vicinity of that building did what your constituents did: They 
ran to their local government to protest, to make sure that it 
wouldn't happen again, and that local government at that time 
was the U.S. Congress.
    Mr. Connolly. Thank you. My time is up. Thank you, Mr. 
Chairman.
    Chairman Issa. Well, thank you for bringing up the 1894 
construction of that building.
    Mr. Connolly. I can tell you, Mr. Chairman, as a then-
resident of the District of Columbia, we were at least glad it 
got renovated.
    Chairman Issa. Yeah. Oh, you're talking about when it was 
renovated, not when it was built.
    Mr. Connolly. When it was renovated, yeah. I missed the 
original construction.
    Chairman Issa. I'm going to briefly ask a couple of related 
questions. Mr. Acosta, one of the other bans, I understand, 
here in the District is after the fires of the early 20th 
century, we banned wooden construction down here in the 
District area. In other words, suddenly all those wooden 
buildings were all old, and there's a date and suddenly they 
were all brick and stone. Is that right?
    Mr. Acosta. I believe so.
    Chairman Issa. But our Founding Fathers thought wood was 
just fine, apparently. So it was okay to build chicken coop 
houses for the first 100 years of our founding, but there came 
a day when we realized we needed to do better in a high density 
modern city.
    Mr. Acosta. Absolutely.
    Chairman Issa. And that was going on all over the country, 
that in high density modern cities, the recognition that it was 
just about impossible for a fire department to keep up with, 
and particularly row homes, with what happens in fires. And 
that's still today. I mean, wood homes in the District, 
although precious and all protected, are hard to protect. Is 
that true?
    Mr. Acosta. It depends on the fire fighting technology.
    Chairman Issa. And so leaving the Height Act alone for a 
moment and setting that aside, the architectural planning of 
the city, has it achieved all of the goals, in other words, 
this fairly eclectic high and low, because we don't have 
minimums, the penthouses we saw earlier? Can we do better than 
that?
    Mr. Acosta. We can always do better, but I think in 
general, it has achieved some of the goals we've talked about, 
including the preeminence of the memorials, because of the 
lower heights. I think it has done a lot in terms----
    Chairman Issa. Well, I appreciate the memorials, but let me 
interrupt for a second. The Federal construction, there's been 
a lot mentioned about jurisdiction over Federal construction. 
When I look at Federal buildings and major embassies like the 
Canadian Embassy and so on, what I see is no consistency of 
height, no consistency of the architecture. There's some butt 
ugly Federal buildings that were built in the 60's. I don't 
know what it was in the 60s, but the protestors should have 
been protesting the architecture. Isn't that true?
    So when I look at the development of the city, don't we 
have both in Federal building construction and in the 
commercial buildings epitomized by K Street, don't we have a 
need to do better than we're doing today? And if so, isn't it 
long overdue for us to update a master plan with great detail 
of the vision for the 21st century?
    Mr. Acosta. I actually concur with that. I think one effort 
that----
    Chairman Issa. I'm looking for concurrence here. Trust me.
    Mr. Acosta. Well, for instance, one effort that both the 
District and NCPC has looked at is kind of what is the future 
of the southwest of the--you know, south of the National Mall, 
which is the Federal Center down there. And that I think we 
both agree that times have changed. The buildings are 
inefficient, it's a single-use district. It could become much 
more of a vibrant place.
    Chairman Issa. And St. Elizabeth isn't really a new area. 
It's an area that fell into decay for a number of years that's 
being revitalized. Isn't that true?
    Mr. Acosta. Yes, it is.
    Chairman Issa. It was once a great area apparently. I 
certainly look at some of the large structures there that 
either have been removed or, in some cases, renovated.
    To a certain extent, aren't we dealing with the 
revitalization of a city where, and I think Ms. Tregoning 
mentioned this, it had 50 years of decline in population, in 
significance of people wanting to live in conventional 
residential structures, relatively little new construction 
until the post 70's period. And the last decade or so has been 
an amazing time for the District. I've served 13 years. I've 
watched the District go from, and Mr. Meadows mentioned this, 
these sort of no go zones versus go zones, and we're watching 
them being pushed out.
    So in light of that, and recognizing what Ms. Norton said, 
don't we in Congress have an obligation to task you, as the two 
bodies overseeing the future, not just in the height, because I 
said I'd set it aside for a second, but also in the planning of 
a city, there are large areas that could have modern affordable 
homes. There are areas like K Street that have relatively 
little residential and a high capacity for lobbyists. We don't 
expect that if you build a residence on K Street, that it's 
going to be occupied by the downtrodden or the needy of the 
District, because the downtrodden and the needy of the 
District, I understand that we have the highest--to be in the 
top 5 percent of income producers, D.C. is the richest city 
from that standpoint. No city has more of, if you will, what it 
takes to be the top end of income. But, Ms. Norton----
    Mr. Connolly. Which is why, Mr. Chairman, we're glad you 
live here.
    Chairman Issa. I pay my taxes in California. Thank you. I 
do pay my property taxes here.
    But I think, and I'll close with this. My concern is this: 
Ms. Norton needs areas of development that are currently 
underdeveloped. The K Street corridor has metastasized because 
of the growth of government. The concentration of Federal 
buildings, new Federal buildings in the District will only 
exacerbate that concentration.
    Let me just ask a closing question, and I will go back to 
the height. If I go out to JFK Stadium, which is up and down. 
It's probably 12 feet above sea level. I think it's kind of 
down there. And I go from there to the river, don't I see an 
example of historic district where they mowed down probably 
huge amounts of homes to build that stadium.
    And now the question is, how do we attract a football team 
or how do we attract something back to these underutilized 
areas? Isn't the challenge for the District of Columbia, for 
the Federal Government to challenge you, work with you and ask 
you to come back on the modification of the Height Act beyond 
anything we might mandate as a result of this study, and a real 
plan that is much more future looking? In other words, we're 
only going to deal with this every 40 or 50 or 100 years. What 
are you going to do to give us the vision for the next 100 
years, and are you prepared to do it? And, Mr. Acosta, in your 
opening statement, you said it needed to happen. How long will 
it take?
    Mr. Acosta. Well, typically the comp plan updates typically 
take 2 to 3 years to produce.
    I do think you raise a couple of very good points. I think 
this is the first time that the city in a very long time has 
been faced with growth, and that I think it makes a lot of 
people nervous to some extent, but I also think it's an 
opportunity to kind of re-examine and revisit some of these 
issues.
    The issues that you've raised with respect to property, 
actually the Federal Government over the last 10 years have 
actually, you know, through the assistance of Mrs. Norton, you 
know, you look at things like Walter Reed as being kind of a 
place for new private development to occur. The area by the 
stadium, which you pointed out had----
    Chairman Issa. That's not affordable housing up there.
    Mr. Acosta. It isn't affordable housing, right, but it 
could be. But Reservation 13, which is adjacent to RFK Stadium 
is another piece of Federal land that was given to the District 
for future development. Poplar Point, which is across the 
river, with a huge track of land that could be redeveloped, 
that was an old Federal property that was transferred back to 
the District. So there are plenty of opportunities to grow with 
respect to these vacant lands, and the District has done a very 
good job of trying to identify what is going there.
    But I do think what is needed today in terms of pulling 
together the pieces to make the community feel comfortable 
about the prospects of growth, to look at the implications in 
terms of what it may mean to our national symbols, you know, I 
do think we have to pull that together in terms of revisiting 
this comp plan. That is the one thing that we both have agreed 
to. I think the question is, you know, how does it relate to 
ultimately heights as a final matter, but I think this is all 
interrelated that----
    Chairman Issa. Well, I heard 2 years. And my time is up, so 
briefly, would you agree that 2 years for this kind of 
challenge is something that if we challenge you, that you can 
come back to Congress with much more--hopefully a consensus in 
2 years on the long-term future of these areas for the 
District?
    Ms. Tregoning. I think that a comp plan takes at least 2 
years. What I would--I guess what I would say is that the 
process is already a well-known, well-understood, well-
developed process within the city, that it already has the 
review and approval required by the National Capital Planning 
Commission. The comp plan has to be passed by the council, so 
it becomes a District law, so then you also get it again in the 
holdover period at Congress.
    So my point is whether we do it now over the next 2 years 
or whether we do it 5 years from now or 10 years from now, you 
know, I don't know the next time we'll have a chairman of this 
committee who's as interested in ths issues as the current 
chairman is.
    Chairman Issa. Eleanor is looking forward to the 
opportunity.
    Ms. Tregoning. I'm just saying, I don't know. We haven't 
been asked this question, in my memory: What does the District 
think the Height Act means and how does it affect its future. 
And honestly, I'm not very confident that when the need is 
imminent for the city, that we'll have someone who has an ear 
to that need.
    So I would argue that those protections already exist. They 
could be made more robust, perhaps, if you'd like to make them 
so, but they are already very, very well used. Every time the 
NCPC has vetoed a portion of the comp plan, the city has 
changed it, and must. Our own Home Rule Charter requires that 
we change it, otherwise, that provision shall have no effect in 
the city. So those are robust protections.
    So I would argue that the changes that we're asking for 
have to be accomplished through the comprehensive plan, and 
that's something that we should indeed undertake together. I 
think the next comprehensive plan revision, there'll never be 
more interest in a comp plan than there will in this one, but 
that the law itself should change now.
    Chairman Issa. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. And I agree 
with Ms. Tregoning. The chairman's interest here came from his 
own understanding of the District. He didn't confer with me and 
said, do you think it's wise to have a hearing? He doesn't do 
that, but I'm very pleased he did, and I think Ms. Tregoning 
makes a good point that if the city doesn't want changes, it 
thinks it won't ever want changes and it's making that decision 
for better or worse right now, because these opportunities 
don't come up very often.
    Mr. Chairman, I also associate myself with your views about 
the undistinguished look of downtown Washington. I'm not sure 
that's because of the Height Act. It seems to me there's got to 
be better architects than the ones who have built downtown 
Washington. It is one of the least distinguished, most 
pedestrian downtowns, and I have never thought that that had to 
do with the Height Act, and I hope that's not the reason.
    And I also must say that among the things I try not to do 
is to say to residents in the great beyond, there is a hope for 
something that nowhere in the country for a reason that is 
structural, that affordable housing will come out of what we're 
doing here today, or what we're discussing here today. The fact 
is that there is no case to be made for affordable housing 
coming out of the status quo. There is, I think, even less case 
to be made for affordable housing coming out of taller 
buildings.
    One way or the other, the country is going to have to live 
within the market system, and that's what we've got and that's 
what we're all going to have. And understand what is happening 
to big cities. How do you keep them diverse, how much does city 
planning have to do with it, but I for one do not see the 
elixirs either in the spread of development that I myself have 
put a priority on or in taller buildings.
    That said, I'm making no promises that way. That doesn't 
decide the issue for me, because I do think we are getting 
growth and I think trying to figure out if that growth will 
continue is very difficult, but you certainly have to plan for 
it. And then there are differences on whether the way to plan 
for it is to look across the city or to also look for taller 
buildings.
    Now, Mr. Acosta, I didn't get to ask you questions before. 
I note you said, page 4, Commission recommended that the 
Federal Height Act remain in place city-wide and no changes be 
made to the formula, et cetera, or the approach. Now, did not 
the Commission overrule the staff recommendation, and what was 
the staff recommendation?
    Mr. Acosta. Well, the staff recommendation actually had to 
do with the comprehensive plan and kind of whether you put the 
cart before the horse, whether you change the law dealing with 
heights before you undertake the next comprehensive plan.
    I think, based open the testimony that they heard during 
the hearings, we had several hearings on this matter, as well 
as the council, as you know, Mr. Mendelson sits on our 
Commission, his statements regarding his opposition to the 
mayor's position, and also kind of the need to do the 
comprehensive plan first and then change the law, I think our 
Commission was essentially swayed to----
    Ms. Norton. Now, Ms. Tregoning, did you disagree with that 
notion to do the comprehensive plan first?
    Ms. Tregoning. I do disagree, in that the effect is 
essentially the same. You know, whether you change the law now 
or you change the law in the future, the only thing is you have 
no certainty in the future that there will be a Congressman or 
there will be a chairman of this committee who's in the 
slightest bit interested in this issue.
    We have to change the comp plan, it has to be approved by 
the NCPC, it has to be passed by the council, it has to have 
public input. And even if we end up with the same result as if 
we don't change the Federal Height Act, it will be the 
District's decision, and that, in and of itself, is an 
important principle, but it is possible that a future city 
leader, a future planning director, a future council might find 
it very much in its interest to make judicious changes to 
heights of buildings in some parts of the city, and this would 
allow that to happen.
    Ms. Norton. Okay. See, I see room for accommodation there, 
but I don't want to pursue that further.
    You also say in your testimony, Mr. Acosta, because you go 
right on right after that to say, Commission recognize that 
there may be opportunities for ``strategic change'' in areas 
outside of L'Enfant City.
    Does that mean you don't see any opportunity for 
``strategic change'' inside that massive area inside L'Enfant 
City?
    Mr. Acosta. Well, I think we should kind of view this as a 
whole. I think the greatest concentration of Federal interest, 
the things that we care most about as a Nation are essentially 
the L'Enfant City.
    Chairman Issa. Would the gentlelady yield for a second?
    Ms. Norton. Certainly.
    Chairman Issa. We had a disagreement on what L'Enfant City 
was, and because I live at Boundary, now called Florida, you're 
talking, I assume, the smaller L'Enfant, not the expansive one 
that goes all the way to Florida.
    Mr. Acosta. Well, we're talking about the L'Enfant City.
    Chairman Issa. You are? All the way to Florida?
    Mr. Acosta. Yes, all the way the Florida.
    Chairman Issa. Okay. Thank you.
    Mr. Acosta. Yes. I think that----
    Ms. Norton. So it's all the way to Florida. And on the east 
and the west----
    Mr. Acosta. The rivers.
    Ms. Norton. --what is it, east and west?
    Ms. Tregoning. The rivers.
    Ms. Norton. Huh?
    Ms. Tregoning. The Potomac and the Anacostia Rivers.
    Mr. Acosta. The rivers. The Potomac and the Anacostia----
    Ms. Norton. Okay.
    Mr. Acosta. --rivers, roughly.
    Ms. Norton. So what neighborhoods does that include, if--
you know, so----
    Ms. Tregoning. Capitol Hill, Shaw. It includes, you know, 
most of Dupont Circle, of Georgetown, and Mt. Vernon.
    Ms. Norton. Now, you want to change heights within those 
areas?
    Ms. Tregoning. For the most part, no, because only on 
streets that are basically, you know, 120 feet or higher would 
there be any actual change in----
    Ms. Norton. Yeah. This is old Washington. That is old 
Washington. So what kind of streets are we talking about?
    Ms. Tregoning. It's----
    Ms. Norton. I mean, there's 14th Street.
    Ms. Tregoning. It would--it would largely be not the--it 
would largely be the avenues, so it would be Pennsylvania 
Avenue, it could be Massachusetts Avenue, it could be parts of 
Rhode Island Avenue, parts of those avenues, and, again, not 
probably through historic districts, so it's modest. So those 
monolithic height increases that we saw in the modeling, we're 
not proposing that.
    Ms. Norton. Well, do you envision most changes, if any, 
coming outside of L'Enfant City or within L'Enfant City?
    Ms. Tregoning. Over time, most of the changes will probably 
be outside the L'Enfant City, but you know, our proposal for 
the city is some very judicious changes inside the L'Enfant 
City that would make building tops more beautiful and would 
take advantage of the dense transit that we have inside the 
L'Enfant City.
    Mr. Connolly. Would the gentlelady yield just for a moment?
    Ms. Norton. Certainly.
    Mr. Connolly. The chairman asked this question, but let me 
ask it again. The monumental core of L'Enfant City is 10.7 
square miles. That's 16 percent of the original L'Enfant City. 
You're talking about all of L'Enfant's plan, not just the 
monumental core?
    Ms. Tregoning. Correct. Most of it would not be happening 
at the monumental core.
    Mr. Connolly. All right. I thank my colleague.
    Ms. Norton. But it does include downtown D.C.?
    Ms. Tregoning. It does.
    Ms. Norton. Now, Mr. Acosta, you speak about the so-called 
ratio approach on page 5, that it allowed, and here I'm quoting 
you, greater height precisely where it was least appropriate on 
L'Enfant's streets, framing views of the U.S. Capitol and the 
White House.
    Now, Ms. Tregoning, do you agree that those areas would not 
be protected if D.C. had flexibility?
    Ms. Tregoning. I don't agree, for the reasons we earlier 
discussed, that the city is designed so that the views are at 
the end of streets, that they are terminated, those views, with 
significant civic and monumental structures, and so those views 
aren't destroyed by having----
    Ms. Norton. Well, just a moment.
    Do you agree with that, Mr. Acosta, that the view is at the 
end and not----
    Mr. Acosta. Well, the----
    Ms. Norton. --in the areas leading----
    Mr. Acosta. Of the streets that are being proposed for 
taller buildings, the wider streets, they typically are the 
streets that radiate from the Capitol or terminate at the White 
House, these are significant view sheds.
    One of the beauties of the L'Enfant plan of the city is 
kind of, like, the spaciousness that you see on the streets. 
That's why it's wide, that's why it's ceremonial, that's why 
you can see the whole dome. The taller the buildings are along 
the street, the more crowded it becomes, that you see, you 
know, kind of the spaciousness around the capital, the 
foreground of the buildings seem taller, your perception of the 
important symbol of the dome is--it's smaller, it's diminished. 
And I think what was the point we were trying to make with 
this.
    I think the key issue here is really this: that we want to 
understand what's possible outside of L'Enfant City, because of 
the growth issue, because much of it is residential, what are 
some of the options to accommodate growth before we make 
determinations about what happens inside of L'Enfant City? From 
a national standpoint, from a Federal interest standpoint, that 
is what we care about collectively, and that I think it's--we 
should do no harm until we have a better understanding after 
the comp plan is completed what can be done to accommodate, if 
the District does grow, what can be accommodated there before 
we make any changes to those important views. That's our 
legacy. That has to be here centuries from now.
    Ms. Norton. Do you think in the past, we could pass a law--
I mean, Ms. Tregoning, that it is very controversial, your 
position that the viewpoints at the end and not in between is 
what matters. I mean, isn't this the kind of thing that you and 
Mr. Acosta ought to be reaching some accommodation on?
    Ms. Tregoning. And we would actually have to reach some 
accommodation in order for a comp plan to be approved. We've 
proposed to institute----
    Ms. Norton. Yes, but as has been indicated, what is before 
the Congress at the moment is not the comp plan but whether 
there should be any changes in the law. And the chairman and I 
are trying to find whether there are ways to satisfy the 
different views that we see even here before us, which may, by 
the way, reflect some of the views in the city. So would you 
continue?
    Ms. Tregoning. I was just going to say that these 
differences are important differences and they do take time and 
study to understand and to work out, but a change to the 
Federal Height Act does not change the height of buildings in 
the city. They won't change until there's a comp plan. And we 
have to agree, because they could veto, based on the Federal 
interest, the very things the they say they object to. So we 
could live with that. That's something that we know that we'll 
have to work with them on, but the change to the Federal Height 
Act doesn't do any harm, it doesn't do anything until there's a 
change to the comp plan.
    Ms. Norton. Well, what this says, it has to come before you 
before----
    Mr. Acosta. Well, let me just make the recommendations 
clearer. I think what is on the table right now in terms of 
what Congress could consider are changes in the L'Enfant City. 
That is what the District is requesting. They aren't suggesting 
any changes outside of L'Enfant City.
    Chairman Issa. Would the gentlelady yield?
    Ms. Norton. Certainly.
    Chairman Issa. I think I have a certain role in presenting 
this. What I asked was for the city to review the Height Act 
and to figure out whether or not changes could be proposed. I 
never envisioned, and quite frankly, I was very pleased that a 
lot of the study and a lot of the proposals, a lot of the 
architects that participated began visualizing specific 
changes.
    I only asked the not-so-rhetorical question of after 100 
years, couldn't Congress consider a change to the Height Act, 
and if so, what would be some of the guidelines?
    What I think I heard, and if the gentlelady would give me 
just another moment, is the city presented a hypothetical that 
included some specifics of the changes, which went beyond just 
should we consider a change to the Height Act. It actually 
proposed them. Those were treated, I think, as though they 
would go into effect if NCPC said yes. You said no, seven to 
three, with the two Members of Congress who have votes 
abstaining. That meant you rejected the District's specific 
proposal.
    The interesting thing for me, and this also includes the 
city council's, Mr. Mendelson's, resolution, is that I heard 
separately to my astonishment for the first time ever a 
rejection of home rule, a rejection of could we give you a 
process to go further at some future time assuming you could 
reach a yes. And I think that's what I've heard today. And 
that's one of my frustrations is, I expected you all to say, 
gosh, this will take years and years, and it'll probably be 
done in bits and pieces. And I think Eleanor and I would hope 
that some of the first pieces would not be K Street, but, in 
fact, potentially blighted areas, areas of new development. I 
did not expect for the first time ever to have people say, 
Please don't give me authority. I can't be trusted, but to a 
certain extent, I'm hearing that. And all of us here, who've 
never shied away from being given more authority, one of my 
challenges now, not just today, but the public comment and so 
on afterwards is before I leave this chair, do I, in fact, find 
a way to make changes to the Height Act that in the future 
would leave you with choices, even if those choices required 
obviously the consent of both your agencies and even 
potentially a referral back to Congress, or do I simply close 
up the book on a 1910 law and wait until the city and NCPC come 
to us at some future time, and if so, am I living up to my 
obligation? So that's how I define it, which is a little 
different than I asked you to----
    Ms. Norton. Let them answer.
    Chairman Issa. Please. Any comments?
    Ms. Norton. I want to hear how they respond to that.
    Ms. Tregoning. I would just say I think you framed it 
exactly right. And I have to say that I'm also confused and 
appalled that after the city fighting so hard for any increment 
of additional democracy--and democracy is messy, it isn't 
consensus-based, there's always disagreement.
    I don't think that the Congress, and with all due respect, 
should protect the District from the consequences of its own 
choices in terms of electoral decisions. So if we want to 
retain heights, that is within our power even after you change 
the law. That's entirely within the control of the District of 
Columbia. And we may never have higher building heights, but we 
desperately want the ability to decide. And our pressure for 
growth gives us the sense of urgency to seek it. Thank you.
    Chairman Issa. Eleanor.
    Ms. Norton. Yeah. Just a couple more questions, if I could 
just finish----
    Chairman Issa. Well, why don't I come back to you, because 
I think Mr. Meadows will be done after one more.
    Mr. Meadows.
    Mr. Meadows. Thank you.
    Mr. Acosta, I want to come back to you, because one of the 
troubling things, even though I've shared that there's a very 
high bar that I would look at from this standpoint, I would 
come back to you. Certainly there are areas of agreement and 
there's certainly areas of modification that I would encourage 
you and your board strongly to see how we can accommodate 
those, if nothing more, to make sure that we can get the 
chairman where he doesn't have to use that wood ladder to get 
up on the roof, but there has to be areas--it becomes very easy 
when you have a body like yours to just say no. And I've dealt 
with it all my life, and so I would encourage you strongly to 
look for those areas where we can find consensus.
    I guess what I'm trying to figure out is what is our 
objective? Is it additional tax base? Is it affordable housing? 
Where exactly is the city wanting to go with this in terms of, 
at the end of the day, how do say you're successful?
    Ms. Tregoning. So it's the things that you mentioned. It is 
additional tax base, it is affordable housing. The thing is, 
we've made the investments to make our city more livable and a 
place that's desirable for people to be, which is good, right?
    Mr. Meadows. Sure.
    Ms. Tregoning. We're not a shrinking city anymore.
    Mr. Meadows. Right.
    Ms. Tregoning. But the very thing that's made us successful 
is also putting a lot of pressure on our long-time residents, 
on the people who would like to be here, on the children of 
people who currently live here, can they afford to ever live in 
our city? The major----
    Mr. Meadows. But I doubt that they will ever be able to 
afford to live on Pennsylvania Avenue.
    Ms. Tregoning. The thing is, the tax base that's increased 
has given us the capacity to do amazing things. The mayor just 
announced $187 million worth of spending on affordable housing. 
That wouldn't have been possible 10 years ago.
    Mr. Meadows. So are you saying that because of this height 
restriction, that development is going outside the city?
    Ms. Tregoning. It is.
    Mr. Meadows. So that's your premise here today is, is that 
people are building outside the city because of this height 
restriction?
    Ms. Tregoning. We're about, and Mr. Connolly can help me 
with this, between 10 and 11 percent of the region's 
population. For the last several years, we've been capturing 
something closer to 14 or 15 percent of the region's population 
growth, and a similar--not as large a number, but we're batting 
above our--we're punching above our weight in terms of both 
jobs and housing. That may or may not continue into the future, 
but if our prices continue to rise, if our supply continues to 
be constrained over time, yes, we're absolutely going to lose 
more people to other jurisdictions.
    Mr. Meadows. But you haven't seen that yet?
    Ms. Tregoning. No. We have. That's been our story for 50 
years, for the last 50 years. It's only recently that we've 
begun to do better relative to the rest of the region, and we 
still have very expensive rent, so we don't have the diversity 
of jobs, we don't have the diversity of housing that we'd 
necessarily like to have. And people who can't afford to be 
here are starting their companies somewhere else, because, you 
know, our rents are too high.
    Mr. Meadows. Okay. What I would like for you, if you would 
just put a priority in terms of what you're hoping to see in 
terms of affordable housing, number of units that this would 
do, because I have a hard time grasping that, because actually 
what you're proposing would have the counter effect, because as 
you go further out, it would actually allow for more affordable 
housing there. We had a statement. I'll give you an analogy. 
It's like selling the filet from the beef cattle and saying, 
we're going to develop the filet and we're going to leave, you 
know, the rump roast for everybody else.
    And so if you look at this, what we've got to do is we've 
got to figure out a way to allow for urban renewal, some of the 
great things that are happening here, and yet at the same time, 
not hamstring it so much, Mr. Acosta, that there is no growth 
within that critical area. And I think that's what I'm looking 
for. Where is the balance, because if not, we'll end up with 
greater heights in this corridor that we all want to protect 
from a visually aesthetic, pleasing manner, but we'll still 
have the Henry's soul food out close to where I live. And so 
that's what I'm looking for, is this balance, and I look 
forward to working with the chairman and the ranking member to 
hopefully come up with a solution. I'll yield back.
    Chairman Issa. I'm personally fond, by the way, of the tri 
tip, which is slightly outside that filet area.
    Mr. Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. And my friend from 
North Carolina's beginning to sound like a bleeding heart 
conservative, but I really welcome his interest and his insight 
into affordable housing. I reiterate, my own experience is if 
you want affordable housing, you have to preserve it. You're 
not going to build a lot of new affordable housing, given 
today's construction. It just isn't economically viable. And so 
I don't know what the District is doing in terms of 
preservation, but growth incentives can actually work against 
that. So you've got to be careful what parts of the city you 
target.
    Mr. Meadows. If the gentleman will yield.
    Mr. Connolly. I will.
    Mr. Meadows. That's my point exactly. And I concur with the 
gentleman from Virginia. In addition to that, we've been on a 
committee where we've talked about some of these Federal 
buildings that do not get used. I would look to work in a 
bipartisan fashion to get some of those where they're actually 
developed and used within the city on a regular basis. Thank 
you.
    Mr. Connolly. Point well taken.
    Ms. Norton. If the gentleman would yield, since we seem to 
have some kind of consensus, I don't know about the chairman, 
on this one. Look, the fact is that the major complaints in the 
city about the cost of housing more than I've ever seen before. 
Rents are too high, housing too high, we're in the top 10 
already of most expensive cities in the United States.
    That's why I take the gentleman's point. You lose 
credibility when you come before Members of Congress who 
believe in the market economy, understand the market economy, 
have seen its effects on housing throughout the country; when 
you say there is a way to reduce the cost of housing, and that 
is by adding more housing, which, and this is what I want to 
get across to you, Ms. Tregoning, that housing has not, except 
for that 8 percent, been for the people who've lived here most 
of their lives, that hasn't been for middle class people, that 
hasn't been for people in the lower middle class.
    Let's face it. It's been for single people who don't yet 
have families. It's been for single people who are able to take 
the housing because two and three of them are living in housing 
that should have been occupied by one person, but it has two 
bedrooms, and that's how they can afford the rent.
    So with all acclaim about spreading development, of which I 
have been a part, I will not say from this rostrum that that is 
the way to reduce the cost of housing in a city which does not 
have room to expand, or even if it expanded by four stories 
going up. And I thank the gentleman for yielding.
    Mr. Connolly. Absolutely. My friend from Washington, D.C., 
might be interested to know my wife and I bought our first 
home, it was a co-op apartment in the District of Columbia, and 
in 1974, that apartment cost $16,600. Even we could afford it. 
Housing was a lot more affordable when I first moved to this 
area than it is today, and it's a challenge for all of us 
throughout the region, I might add, not just for the District 
of Columbia, but particularly acute in the District.
    Mr. Acosta, let me ask, you said in your testimony that 
there might be areas outside the L'Enfant City where maximum 
heights could be increased, but it's got to be studied. You 
want to give us some hints of targets, target areas that would 
fall under that rubric?
    Mr. Acosta. Well, the study itself, the District put 
forward a series of illustrative areas, they ranged everything, 
as Ms. Tregoning said, from Friendship heights to Poplar Point 
to other places. That could be considered for additional 
height.
    Mr. Connolly. Well, are you--I guess I'm--is the National 
Capital Planning Commission, is that study underway by the NCPC 
or is it just something you're saying we ought to study that?
    Mr. Acosta. It's something that we would have to pursue in 
the next comp plan update. I think that's part of the answer.
    Mr. Connolly. In light of this hearing and other 
conversations, don't you think maybe that should be in the work 
plan?
    Mr. Acosta. Yes.
    Mr. Connolly. The chairman made a good point. Looking at 
parts of the city and what they border; for example, do we 
really care that much about building heights in areas of the 
city that border Chevy Chase or Bethesda, where building 
heights right across the border are not restricted?
    Mr. Acosta. There are fewer Federal interests with----
    Mr. Connolly. I'm sorry?
    Mr. Acosta. There are fewer Federal interests with respect 
to----
    Mr. Connolly. Right. So, I mean, my only point is, I mean, 
we may reject them or not, but clearly, there are some areas of 
the city ripe for that kind of examination.
    Mr. Acosta. There could be. I think you're absolutely 
right, that that's a discussion that we would have as part of 
this. I think one of the issues that, you know, because of the 
timing, the District could not put forward, you know, two or 
three areas explicitly that would be targeted for heights.
    Mr. Connolly. Yeah.
    Mr. Acosta. They did it as part of this process. We could 
have evaluated it for Federal interest, but I do think it does 
take a discussion now with the community and that they want to 
be engaged in kind of where these targeted areas might be. And 
I think that's part of the bigger question out there, whether 
this could be accommodated under the current height limits or 
do you need more height to kind of get to the densities that it 
requires.
    Mr. Connolly. And, Mr. Chairman, let me just say, as I said 
to you privately, and to my friend from the District of 
Columbia, too, I hope we also, at some point, have a discussion 
about the Capitol Hill area. I think there are real security 
issues in terms of how this place is functioning and designed 
road-wise, pedestrian-wise, proximity to various and sundry 
transportation nodes, including CSX, that are of concern to 
many of us and ought to be of concern to everyone in the 
region.
    Ms. Tregoning, I think you and I were on a panel once where 
we actually talked about some of those concerns under the aegis 
of the Council of Governments, and I would just hope at some 
point, Mr. Chairman, while you're chairman, we might be able to 
take a fresh look at that, because I think it really needs some 
planning help. Thank you, Mr. Chairman.
    Chairman Issa. Thank you. I understand that the committee 
has received an inordinate, or an unusual amount of input from 
residents of the District of Columbia directly. I want to make 
sure that it's announced here today that we'll include all of 
those in our record.
    Additionally, as I said in the beginning, I'm going to hold 
the record open for 7 days, so I would take additional comments 
from the District of Columbia from residents and interested 
parties.
    I'm going to summarize a couple of things I heard today, 
because I think that leading up to this hearing, things that 
were said would make people believe that there's no area of 
agreement. What I believe I heard, and I want to be corrected 
if I go outside what I heard, there is no question but that a 
small change in penthouse could be beneficial to the city, and 
not be in any way objectionable to NCPC; that there is clearly 
a high level of concern when it comes to L'Enfant Plaza and 
particularly old L'Enfant Plaza; that as we go further away 
from the Capitol and the White House, and, of course, we 
normally rise on the north side, that these areas have 
generally less concern, and that the area of vista and 
preservation sadly is also at the area of greatest 
concentration request, in other words, we referred to K Street, 
but there are other areas.
    Lastly, that when we ring the city, Maryland on the north, 
Virginia on the south in some cases, what we find is areas in 
which neither one of your organizations has any authority, and 
those States and their incorporated cities are free to expand 
to any height they want, and yet we have artificially in--let's 
just say, the first half mile or mile around the city, we've 
artificially created a similar, or not an identical limitation. 
Well, there's no identical need. I think I heard that, Mr. 
Acosta, specifically, that they would be seen as less Federal 
interest, but had hypothetically the city said for the first 
some distance, up in the north it would be a mile, in the south 
it might be less, if they'd submitted a ring and said we'd like 
to be able to essentially build and obstruct Maryland from 
looking at the building, we'd like to obstruct Virginia from 
looking at the building unless they want to raise higher, 
because we feel we have that right and no obligation to the 
people of Chevy Chase or the people of northern Virginia, that 
you might have looked at it and said, well, under home rule, 
what would be the harm, since 500 feet further in one direction 
or another, somebody could build if they chose to and obstruct 
effectively everybody else?
    Was I accurate in saying that, even though I said it 
deliberately in sort of an extreme way, but recognizing that 
that's what I thought I heard you say is that you had little or 
no interest in those areas that are perimetered by two other 
States?
    Mr. Acosta. Yeah. Those would be reviewed obviously on a 
case-by-case basis. In some locations there may be Federal 
parks, for instance, that abut it or Federal facilities that 
might abut it, there may be particular view sheds.
    Chairman Issa. I'm sure the Pentagon doesn't want to lose 
their view of the Capitol.
    Mr. Acosta. Right. So, you know, again, that's actually 
part of this comp plan process, is that it does allow us to--
for the District to make proposals, you know, to be fully 
vetted by the community so they understand the assumptions that 
go into it, as well as kind of the growth that may occur and 
what it may mean to them. Once it's vetted by the community and 
the council accepts it, it comes back to us for a Federal 
interest review. I think that's the way the process works in 
terms of how these height issues might be addressed in the 
future. That was essentially the proposal that the District had 
put forward.
    Chairman Issa. And lastly, what I think I heard, although 
previous statements may indicate differently, that you both 
agree that there's a check and balance, that the rejection that 
came from NCPC would have been if there were no Height Act, the 
same rejection at this time, that you were not prepared to 
approve the plan for greater height as it was submitted by the 
city, and that effectively your seven-to-three vote would have 
been exactly the same if there'd been no Height Act.
    And I realize you were looking at both a hypothetical plan 
and a modification of the Height Act, but if the Height Act had 
no restrictions, you still would have had substantially the 
same vote, I assume.
    Mr. Acosta. It would have occurred, yes.
    Chairman Issa. Okay. Well, I think we have a better 
understanding of how we got here today. I'm not done looking at 
this or listening and reading. I'm not done with the District 
of Columbia's residents having input.
    And, Mr. Connolly, I am certainly--immediately following 
this, I look forward to having a further dialogue on Federal 
buildings in this area. And I think that Mr. Mica and a whole 
raft of Members want to try to get it right, including on some 
of those buildings I described less than kindly that were built 
in the '60s and '70s.
    Ms. Norton, you had a closing comment?
    Ms. Norton. Mr. Chairman, I just wanted to clarify where 
the final authority would lie.
    Before I do that, I noticed that on page 2, you indicate a 
full paragraph of consultation with Federal agencies and that 
they had views on adverse effects for all kinds of things, 
including Federal headquarters and the like. Were these all 
within L'Enfant City?
    Mr. Acosta. They were actually throughout the entire city. 
The Federal facilities are throughout the entire city.
    Ms. Norton. All right. Therefore, in the plan that you have 
put forward and the plan that Ms. Tregoning as put forward, 
would there be retention of ultimate authority in the Federal 
Government?
    Mr. Acosta. Well, the--yes. I think if you use this comp 
plan process, it becomes the law, it comes to the Hill for, you 
know, a 30-day preview period.
    Ms. Norton. I'm not talking about the 30-day period now, 
because remember, the reason I'm not talking about the 30-day 
period is that we're talking about changes both within and 
without L'Enfant City. And I indicated, and I gave the 
hypothetical, at least in my opening remarks, where the changes 
did not involve the Federal interest. And I think that some in 
the city are concerned about that kind of change, that you'd 
kind of have runaway development.
    And, indeed, I'd like to ask you, if the District or the 
Federal Government stuck to the way it looks at legislation 
coming and there were changes in the Height Act, let's say 
outside of L'Enfant City, that did not involve the Federal 
interest such as perhaps what Mr. Acosta was alluding to on 
page 2 with all the Federal headquarters, it didn't involve any 
of that, how should the hypothetical that comes in real-time 
from the 1990s, apparently, the early 1990s, where apparently a 
developer convinced the council to interpret the Height Act as 
it now stands as allowing for a height greater than the Height 
Act allows, the worry seems to be about exceptions like that, 
because they've seen at least one occur. How would that be 
handled?
    Mr. Acosta. In terms of the comp plan? In terms of any 
height changes in the future?
    Ms. Norton. Yeah.
    Mr. Acosta. I think part of the issue is, you know, how are 
these height changes going to be flagged as part of the comp 
plan process. I think there was a lot of concern that this 
could look more like spot zoning, where two or three parcels as 
opposed to kind of taking a thorough and kind of careful look 
at areas could occur. I think that was what we heard from some 
of the testimony, and that I think a lot of the concern was, 
you know, that process hasn't been thought all the way through. 
You know, changing heights this way is a new thing, would be a 
new thing. It would be a substantial difference in terms of how 
people and how the community interface with the planners and 
with the city and with even NCPC.
    So I think there was lot of concern about, you know, we 
haven't set this up, they don't know exactly what would happen, 
they don't necessarily--you know, this is from the community. 
They're not sure, you know, how they would be notified about 
these things or whether it would be kind of done quickly or not 
or kind of at the last moment. A lot of the questions kind of 
ranged--were kind of in that area of focus.
    So I think that's--you know, those are things that, you 
know, if Congress at some point in time decided to make a 
change, would have to be worked through.
    I do think one of the bigger issues is really people enjoy 
the certainty that's out there today, and any change that you 
make, you know, affects their neighborhoods, affects their 
property, affects their assets, and I think to some extent, 
that's how people are reacting to this particular issue. It's 
an important issue, too, that they see this personally and they 
see this as, you know, very fundamental to their property, 
their communities, you know, to the way they live. And that, 
you know, while they--I think everybody, you know, appreciates 
the home rule arguments, I think, you know, they put the two 
together, and I think that's essentially what is happening over 
this process.
    Ms. Norton. Ms. Tregoning, do you see any way to avoid that 
hypothetical--it wasn't hypothetical--that example from the 
1990s where an exception was made, and the Congress overturned 
it, and here we're talking about exceptions that would not 
violate the Federal interests. Do you think that the District 
could figure out a way to keep controversial exceptions or 
interpretations like that from occurring when there was no 
backstop in the Congress of the United States?
    Ms. Tregoning. I do, and I have had this conversation with 
Chairman Mendelson of the Council of the District of Columbia 
that these are laws that we can change and strengthen if we 
feel the need to do so. For that matter, we could enact our own 
version of a height limit that would have to also be passed, 
but would also have to be changed by an act of the council, a 
majority, a supermajority. You can imagine all sorts of ways.
    But there is no perfect land-use process in any place in 
the country. And, again, the quality of our government, you 
know, is a consequence of the actions of our citizens. If 
democracy is messy, I relish the opportunity for our city to 
roll up our sleeves and figure out how to do this.
    Ms. Norton. Well, I urge you to try to think through some 
of the ideas you just laid on the table so that you can quiet 
some of the concerns in the city, and so that we are not faced 
with the embarrassment of some people not trusting themselves 
to make a home rule decision. But it will take some work, and 
it will take some consensus between the executive and the 
legislative branches.
    And I thank you, Mr. Chairman, very much.
    Chairman Issa. I thank you.
    I thank our witnesses and our panel. This was an unusual 
hearing.
    I also want to thank the concerned audience. And, again, 
this is an ongoing process. It won't be closed, at least during 
my tenure.
    With that, we stand adjourned.
    [Whereupon, at 12:02 p.m., the committee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHIC] [TIFF OMITTED] 86796.017

[GRAPHIC] [TIFF OMITTED] 86796.018

[GRAPHIC] [TIFF OMITTED] 86796.019

[GRAPHIC] [TIFF OMITTED] 86796.020

[GRAPHIC] [TIFF OMITTED] 86796.021

[GRAPHIC] [TIFF OMITTED] 86796.022

[GRAPHIC] [TIFF OMITTED] 86796.023

[GRAPHIC] [TIFF OMITTED] 86796.024

[GRAPHIC] [TIFF OMITTED] 86796.025

[GRAPHIC] [TIFF OMITTED] 86796.026

[GRAPHIC] [TIFF OMITTED] 86796.027

[GRAPHIC] [TIFF OMITTED] 86796.028

[GRAPHIC] [TIFF OMITTED] 86796.029

[GRAPHIC] [TIFF OMITTED] 86796.030

[GRAPHIC] [TIFF OMITTED] 86796.031

[GRAPHIC] [TIFF OMITTED] 86796.032

[GRAPHIC] [TIFF OMITTED] 86796.033

[GRAPHIC] [TIFF OMITTED] 86796.034

[GRAPHIC] [TIFF OMITTED] 86796.035

[GRAPHIC] [TIFF OMITTED] 86796.036

[GRAPHIC] [TIFF OMITTED] 86796.037

[GRAPHIC] [TIFF OMITTED] 86796.038

[GRAPHIC] [TIFF OMITTED] 86796.039

[GRAPHIC] [TIFF OMITTED] 86796.040

[GRAPHIC] [TIFF OMITTED] 86796.041

[GRAPHIC] [TIFF OMITTED] 86796.042

[GRAPHIC] [TIFF OMITTED] 86796.043

[GRAPHIC] [TIFF OMITTED] 86796.044

[GRAPHIC] [TIFF OMITTED] 86796.045

[GRAPHIC] [TIFF OMITTED] 86796.046

[GRAPHIC] [TIFF OMITTED] 86796.047

[GRAPHIC] [TIFF OMITTED] 86796.048

[GRAPHIC] [TIFF OMITTED] 86796.049

[GRAPHIC] [TIFF OMITTED] 86796.050

[GRAPHIC] [TIFF OMITTED] 86796.051

[GRAPHIC] [TIFF OMITTED] 86796.052

[GRAPHIC] [TIFF OMITTED] 86796.053

[GRAPHIC] [TIFF OMITTED] 86796.054

[GRAPHIC] [TIFF OMITTED] 86796.055

[GRAPHIC] [TIFF OMITTED] 86796.056

[GRAPHIC] [TIFF OMITTED] 86796.057

[GRAPHIC] [TIFF OMITTED] 86796.058

[GRAPHIC] [TIFF OMITTED] 86796.059

[GRAPHIC] [TIFF OMITTED] 86796.060

[GRAPHIC] [TIFF OMITTED] 86796.061

[GRAPHIC] [TIFF OMITTED] 86796.062

[GRAPHIC] [TIFF OMITTED] 86796.063

[GRAPHIC] [TIFF OMITTED] 86796.064

[GRAPHIC] [TIFF OMITTED] 86796.065

[GRAPHIC] [TIFF OMITTED] 86796.066

[GRAPHIC] [TIFF OMITTED] 86796.067

[GRAPHIC] [TIFF OMITTED] 86796.068

[GRAPHIC] [TIFF OMITTED] 86796.069

[GRAPHIC] [TIFF OMITTED] 86796.070

[GRAPHIC] [TIFF OMITTED] 86796.071

[GRAPHIC] [TIFF OMITTED] 86796.072

[GRAPHIC] [TIFF OMITTED] 86796.073

[GRAPHIC] [TIFF OMITTED] 86796.074

[GRAPHIC] [TIFF OMITTED] 86796.075

[GRAPHIC] [TIFF OMITTED] 86796.076

[GRAPHIC] [TIFF OMITTED] 86796.077

[GRAPHIC] [TIFF OMITTED] 86796.078

[GRAPHIC] [TIFF OMITTED] 86796.079

[GRAPHIC] [TIFF OMITTED] 86796.080

[GRAPHIC] [TIFF OMITTED] 86796.081

[GRAPHIC] [TIFF OMITTED] 86796.082

[GRAPHIC] [TIFF OMITTED] 86796.083

[GRAPHIC] [TIFF OMITTED] 86796.084

[GRAPHIC] [TIFF OMITTED] 86796.085

[GRAPHIC] [TIFF OMITTED] 86796.086

[GRAPHIC] [TIFF OMITTED] 86796.087

[GRAPHIC] [TIFF OMITTED] 86796.088

[GRAPHIC] [TIFF OMITTED] 86796.089

[GRAPHIC] [TIFF OMITTED] 86796.090

[GRAPHIC] [TIFF OMITTED] 86796.091

[GRAPHIC] [TIFF OMITTED] 86796.092

[GRAPHIC] [TIFF OMITTED] 86796.093

[GRAPHIC] [TIFF OMITTED] 86796.094

[GRAPHIC] [TIFF OMITTED] 86796.095

[GRAPHIC] [TIFF OMITTED] 86796.096

[GRAPHIC] [TIFF OMITTED] 86796.097

[GRAPHIC] [TIFF OMITTED] 86796.098

[GRAPHIC] [TIFF OMITTED] 86796.099

[GRAPHIC] [TIFF OMITTED] 86796.100

[GRAPHIC] [TIFF OMITTED] 86796.101

[GRAPHIC] [TIFF OMITTED] 86796.102

[GRAPHIC] [TIFF OMITTED] 86796.103

[GRAPHIC] [TIFF OMITTED] 86796.104

[GRAPHIC] [TIFF OMITTED] 86796.105

[GRAPHIC] [TIFF OMITTED] 86796.106

[GRAPHIC] [TIFF OMITTED] 86796.107

[GRAPHIC] [TIFF OMITTED] 86796.108

[GRAPHIC] [TIFF OMITTED] 86796.109

[GRAPHIC] [TIFF OMITTED] 86796.110

[GRAPHIC] [TIFF OMITTED] 86796.111

[GRAPHIC] [TIFF OMITTED] 86796.112

[GRAPHIC] [TIFF OMITTED] 86796.113

[GRAPHIC] [TIFF OMITTED] 86796.114

[GRAPHIC] [TIFF OMITTED] 86796.115

[GRAPHIC] [TIFF OMITTED] 86796.116

[GRAPHIC] [TIFF OMITTED] 86796.117

[GRAPHIC] [TIFF OMITTED] 86796.118

[GRAPHIC] [TIFF OMITTED] 86796.119

[GRAPHIC] [TIFF OMITTED] 86796.120

[GRAPHIC] [TIFF OMITTED] 86796.121

[GRAPHIC] [TIFF OMITTED] 86796.122

[GRAPHIC] [TIFF OMITTED] 86796.123

[GRAPHIC] [TIFF OMITTED] 86796.124

[GRAPHIC] [TIFF OMITTED] 86796.125

[GRAPHIC] [TIFF OMITTED] 86796.126

[GRAPHIC] [TIFF OMITTED] 86796.127

[GRAPHIC] [TIFF OMITTED] 86796.128

[GRAPHIC] [TIFF OMITTED] 86796.129

[GRAPHIC] [TIFF OMITTED] 86796.130

[GRAPHIC] [TIFF OMITTED] 86796.131

[GRAPHIC] [TIFF OMITTED] 86796.132

[GRAPHIC] [TIFF OMITTED] 86796.133

[GRAPHIC] [TIFF OMITTED] 86796.134

[GRAPHIC] [TIFF OMITTED] 86796.135

[GRAPHIC] [TIFF OMITTED] 86796.136

[GRAPHIC] [TIFF OMITTED] 86796.137

[GRAPHIC] [TIFF OMITTED] 86796.138

[GRAPHIC] [TIFF OMITTED] 86796.139

[GRAPHIC] [TIFF OMITTED] 86796.140

[GRAPHIC] [TIFF OMITTED] 86796.141

[GRAPHIC] [TIFF OMITTED] 86796.142

[GRAPHIC] [TIFF OMITTED] 86796.143

[GRAPHIC] [TIFF OMITTED] 86796.144

[GRAPHIC] [TIFF OMITTED] 86796.145

[GRAPHIC] [TIFF OMITTED] 86796.146

[GRAPHIC] [TIFF OMITTED] 86796.147

[GRAPHIC] [TIFF OMITTED] 86796.148

[GRAPHIC] [TIFF OMITTED] 86796.149

[GRAPHIC] [TIFF OMITTED] 86796.150

[GRAPHIC] [TIFF OMITTED] 86796.151

[GRAPHIC] [TIFF OMITTED] 86796.152

[GRAPHIC] [TIFF OMITTED] 86796.153

[GRAPHIC] [TIFF OMITTED] 86796.154

[GRAPHIC] [TIFF OMITTED] 86796.155

[GRAPHIC] [TIFF OMITTED] 86796.156

[GRAPHIC] [TIFF OMITTED] 86796.157

[GRAPHIC] [TIFF OMITTED] 86796.158

[GRAPHIC] [TIFF OMITTED] 86796.159

[GRAPHIC] [TIFF OMITTED] 86796.160

[GRAPHIC] [TIFF OMITTED] 86796.161

[GRAPHIC] [TIFF OMITTED] 86796.162

[GRAPHIC] [TIFF OMITTED] 86796.163

[GRAPHIC] [TIFF OMITTED] 86796.164

[GRAPHIC] [TIFF OMITTED] 86796.165

[GRAPHIC] [TIFF OMITTED] 86796.166

[GRAPHIC] [TIFF OMITTED] 86796.167

[GRAPHIC] [TIFF OMITTED] 86796.168

[GRAPHIC] [TIFF OMITTED] 86796.169

[GRAPHIC] [TIFF OMITTED] 86796.170

[GRAPHIC] [TIFF OMITTED] 86796.171

[GRAPHIC] [TIFF OMITTED] 86796.172

[GRAPHIC] [TIFF OMITTED] 86796.173

[GRAPHIC] [TIFF OMITTED] 86796.174

[GRAPHIC] [TIFF OMITTED] 86796.175

[GRAPHIC] [TIFF OMITTED] 86796.176

[GRAPHIC] [TIFF OMITTED] 86796.177

[GRAPHIC] [TIFF OMITTED] 86796.178

[GRAPHIC] [TIFF OMITTED] 86796.179

[GRAPHIC] [TIFF OMITTED] 86796.180

[GRAPHIC] [TIFF OMITTED] 86796.181

[GRAPHIC] [TIFF OMITTED] 86796.182

[GRAPHIC] [TIFF OMITTED] 86796.183

                                 <all>

</pre></body></html>
